APPENDIX A

USCA Case #18-5350

Document #1844764

ptmttb

Filed: 05/29/2020

(Kauri af appeals

FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued October 25, 2019

Decided May 29, 2020

No. 18-5350
Duane Joseph Johnson,
Appellant
v.
E. D. Wilson, Warden,
Appellee
Appeal from the United States District Court
for the District of Columbia
(No. l:10-cv-00178)
Amanda J. Sterling argued the cause for appellant. On the
briefs were Alex Young K. Oh and Michelle Parikh.
Sharon A. Sprague, Assistant U.S. Attorney, argued the
cause for appellee. With her on the brief were Jessie K. Liu,
U.S. Attorney, and Elizabeth Trosman and Chrisellen R. Kolb,
Assistant U.S. Attorneys. Lauren R. Bates and R. Craig
Lawrence, Assistant U.S. Attorneys, entered appearances.
Before: Millett and Katsas, Circuit Judges, and
Sentelle, Senior Circuit Judge.
Opinion for the Court filed by Circuit Judge KATSAS.

Page 1 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

2
Katsas, Circuit Judge: In this federal habeas action,
Duane Johnson contends that he received ineffective assistance
of counsel during the direct appeal of his murder conviction in
D.C. Superior Court. Among other things, Johnson argues that
his appellate counsel labored under two conflicts of interest and
failed to argue that the government withheld exculpatory
evidence. We reject all of Johnson’s contentions.
I
A
Around 4 a.m. on April 26, 1994, Keith Nash was shot
twice and killed. His sister, Sharon Nash, was shot once but
survived. Duane Johnson, who was then in a parked car with
the Nashes and three other people, was charged with murder
and other offenses in the Superior Court of the District of
Columbia. At trial, the prosecution and the defense told
conflicting stories about Johnson’s role in the shootings.
According to the prosecution, Johnson shot the Nashes as
part of an attempted robbery. That evening, Keith, Sharon,
Victor Williams, and LaTina Gary piled into Keith’s sedan and
went out looking for cocaine. The group tried to buy from
Johnson, who had previously supplied Williams, but his price
was too high. Johnson, who was with Damitra Rowel,
nonetheless asked for a ride. Keith agreed, and the pair
crammed into the back seat of his car. At that time, Keith was
driving, Sharon was seated in the front passenger seat, and the
four others were in the back seat, with Johnson at the far left
and Williams at the far right. When they reached an alley,
Johnson ordered Keith to shut off the engine, put a gun to his
head, and demanded money. When Keith refused, Johnson
fired three shots, hitting Keith twice in the neck and Sharon
once in her left side. Johnson and Rowel ran away. Williams

Page 2 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

3

grabbed Keith’s gun and fired shots after Johnson.
Williams and Gary called 911 to report the shootings.

Then

In Johnson’s rendition, Keith and Sharon were shot
accidentally as Johnson resisted Williams’s attempt to rob him.
Williams asked Johnson to get in the car to go make a drug sale
to nearby buyers. Skeptical, the unarmed Johnson asked Rowel
to come with him. Keith drove to the alley and turned off the
engine. Then Williams pulled a gun on Johnson and tried to
rob him. Johnson tussled with Williams, whose gun went off
several times. Johnson and Rowel escaped from the car and
ran away, with Williams firing after Johnson.
The jury believed the prosecution. It found Johnson guilty
of first-degree felony murder while armed, second-degree
murder while armed, and various lesser charges. The Superior
Court sentenced Johnson to 51 years to life in prison.
At trial and on direct appeal, Johnson was represented by
appointed counsel Frederick Sullivan. On appeal, Sullivan
argued that the evidence was insufficient to convict Johnson
and that the Superior Court had erred by not instructing the jury
on manslaughter. The D.C. Court of Appeals rejected both
arguments but remanded for vacatur of the duplicative counts
of conviction. On remand, the Superior Court resentenced
Johnson to 46 years to life in prison.
B
Since his resentencing, Johnson has raised various
collateral attacks on his conviction. Convictions in the D.C.
Superior Court are subject to a unique regime of collateral
review. A prisoner in custody under a Superior Court sentence
“may move the court to vacate, set aside, or correct the
sentence.” D.C. Code § 23-110(a). To the extent this remedy
is available, it is exclusive. See id. § 23-110(g). Thus, federal

Page 3 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

4
courts cannot consider habeas petitions filed by prisoners who
have adequate and effective section 23-110 remedies available
to them. See Blair-Bey v. Quick, 151 F.3d 1036, 1042 (D.C.
Cir. 1998). From 1998 to 2006, Johnson filed four section 23110 motions, variously alleging ineffective assistance of
counsel and violations of Brady v. Maryland, 373 U.S. 83
(1963). His first three motions were denied or withdrawn.
In 2007, Johnson discovered that Sullivan, between 1985
and 1987, had represented Williams on charges of first-degree
burglary and armed robbery. Williams had testified for the
prosecution at Johnson’s trial. Johnson moved to amend his
fourth section 23-110 motion to allege that Sullivan had
provided ineffective assistance at trial while laboring under a
conflict of interest from his prior representation of Williams.
Johnson also sought to raise a claim that Sullivan had provided
ineffective assistance in his direct appeal while laboring under
the same conflict. In the D.C. court system, a prisoner can raise
claims for ineffective assistance of appellate counsel only
through a motion to the D.C. Court of Appeals to recall its
mandate, not through a motion to the Superior Court under
section 23-110. See Watson v. United States, 536 A.2d 1056,
1060 (D.C. 1987) (en banc). Johnson claimed ineffective
assistance of appellate counsel in a motion to recall the Court
of Appeals’ mandate. The Court of Appeals denied the motion
without prejudice to the Superior Court’s consideration of
conflict issues in the pending section 23-110 motion.
In 2008, the D.C. Superior Court rejected Johnson’s claims
of ineffective trial counsel and Brady violations. Johnson
appealed. He also filed another motion to recall the D.C. Court
of Appeals’ mandate. The Court of Appeals denied the motion
on the ground that the conflict issue was already before it in the
appeal from the Superior Court’s decision. A few months later,

Page 4 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

5
the Court of Appeals affirmed that decision but did not mention
Johnson’s claim of ineffective assistance of appellate counsel.
In 2010, Johnson filed a federal habeas action under 28
U.S.C. § 2254. The district court held that D.C. Code § 23110(g) barred review of all claims other than ineffective
assistance of appellate counsel. It further held that Johnson
was barred from claiming ineffective assistance of appellate
counsel because he had neither moved to recall the mandate nor
claimed that doing so would have failed to protect his rights.
Johnson v. Stansberry, No. 10-cv-178, 2010 WL 358521
(D.D.C. Jan. 29, 2010). We reversed that determination
because Johnson had, in fact, moved to recall the mandate.
Johnson v. Stansberry, No. 10-5346 (D.C. Cir. May 11, 2011).
After further skirmishing, Johnson v. Stansberry, No. 10-cv178 (D.D.C. June 30, 2011); Johnson v. Wilson, No. 10-5346
(D.C. Cir. Jan. 2, 2013), the district court referred to a
magistrate judge the claim that Johnson’s appellate counsel had
been ineffective.
At an evidentiary hearing, the magistrate judge heard
testimony from both Johnson and Sullivan. The magistrate
judge credited Sullivan’s testimony that, when Sullivan
represented Johnson, he had forgotten his prior representation
of Williams. The magistrate judge concluded that Sullivan had
not been ineffective in the appeal, and he recommended
rejecting Johnson’s claim. The district court adopted the
recommendation, denied the habeas petition, and issued a
certificate of appealability. Johnson v. Wilson, No. 10-cv-178,
2018 WL 5297811 (D.D.C. Oct. 25, 2018); Minute Order,
Johnson v. Wilson, No. 10-cv-178 (D.D.C. Dec. 4, 2018).
In 2020, while this appeal was pending, Johnson moved in
Superior Court for a reduction of his sentence under D.C. Code
§ 24-403.03, which applies to certain sentences for crimes

Page 5 of 14

USCA Case,#18-5350

Document #1844764

Filed: 05/29/2020

6
committed by minors. The Superior Court granted Johnson’s
motion and ordered him released from custody. United States
v. Johnson, No. 1994 FEL 004696 (D.C. Super. Ct. Feb. 7,
2020). Because Johnson remains on probation and subject to
registration requirements because of his conviction, this appeal
is not moot. See Spencer v. Kemna, 523 U.S. 1, 7 (1998).
II
A
Under 28 U.S.C. § 2254(a), a person in custody under the
judgment of a D.C. court may petition for a writ of habeas
corpus on the ground that he is being held “in violation of the
Constitution or laws or treaties of the United States.” Id.; see
Waters v. Lockett, 896 F.3d 559, 566 (D.C. Cir. 2018).
Johnson’s petition alleges that he was held in violation of his
Sixth Amendment right to the effective assistance of appellate
counsel.
Johnson raises two theories. First, under Cuyler v.
Sullivan, 446 U.S. 335 (1980), he contends that Sullivan’s
performance on appeal was adversely affected by two conflicts
of interest. Second, under Strickland v. Washington, 466 U.S.
668 (1984), Johnson argues that Sullivan was ineffective on
appeal based on his failure to raise Brady claims and his failure
to argue that he had been ineffective at trial.
In habeas appeals, we review the district court’s legal
determinations de novo and its factual findings for clear error.
See Waters, 896 F.3d at 566. It is unclear whether the Superior
Court or the D.C. Court of Appeals resolved the claims before
us on the merits, which would trigger deferential review of
their decisions. See 28 U.S.C. § 2254(d). We may assume that

Page 6 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

Page 7 of 14

7
this rule of deference does not apply here, because Johnson’s
claims fail even without it.
B
We begin with Johnson’s Cuyler claims. The Sixth
Amendment provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right ... to have the Assistance of
Counsel for his defence.” It encompasses the right to “effective
assistance of counsel,” McMann v. Richardson, 397 U.S. 759,
771 n.14 (1970), both at trial and in a first direct appeal as of
right, see Evitts v. Lucey, 469 U.S. 387, 396 (1985).
In general, a defendant claiming ineffective assistance
must prove both that his lawyer performed deficiently and that
he suffered prejudice as a result. Strickland, 466 U.S. at 687.
But when a defendant establishes that his counsel was
burdened with an “actual conflict” of interest, prejudice is
presumed, United States v. Gantt, 140 F.3d 249, 254 (D.C. Cir.
1998), and the defendant need only show that the conflict
“adversely affected his lawyer’s performance,” Cuyler, 446
U.S. at 348. An “actual conflict” means that the attorney
“actively represented conflicting interests.” Id. at 350. If the
attorney does not know about the conflict of interest, there can
be no actual conflict. See United States v. McGill, 815 F.3d
846, 943 (D.C. Cir. 2016) (per curiam).
Johnson argues that two different conflicts of interest
impaired Sullivan’s performance in the appeal. The first
conflict arose from Sullivan’s prior representation of
Williams.1 The second arose from Sullivan’s own self-interest
Neither the Supreme Court nor our Court has decided whether
Cuyler applies to successive as opposed to concurrent

/

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

8
in not arguing that he had been ineffective at trial.
arguments fall short.

Both

1

\

Johnson’s first Cuyler claim founders because Sullivan
had forgotten his prior representation of Williams and thus
lacked an actual conflict. The district court found that Sullivan,
while representing Johnson, did not remember that he had
represented Williams years earlier. We review that finding
only for clear error, bearing in mind that a finding based on the
credibility of coherent, internally consistent, and facially
plausible witness testimony that is not contradicted by extrinsic
evidence “can virtually never be clear error.” Anderson v.
Bessemer City, 470 U.S. 564, 575 (1985). Here, the district
court’s credibility finding was well supported.2
At the evidentiary hearing, Sullivan presented a coherent
and believable account of his state of mind while representing
Johnson. From 1985 to 1987, Sullivan represented Williams,
who was charged with first-degree burglary and pleaded guilty
to second-degree theft and unlawful entry. Sullivan testified
that at no time during his representation of Johnson, from 1994
to 1996, did he remember that he previously had represented
Williams. Sullivan explained that he had no system in place to
run conflicts checks and, in particular, to make sure that he had
not previously represented government witnesses.
And
representations. See Mickens v. Taylor, 535 U.S. 162, 176 (2002);
United States v. Wright, 745 F.3d 1231, 1233 (D.C. Cir. 2014).
Because Johnson loses either way, we need not decide that issue.
2 In ruling on Johnson’s claim for ineffective assistance of trial
counsel, the Superior Court did not determine whether Sullivan
remembered having represented Williams. Consequently, we review
only the district court’s findings of fact.

Page 8 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

9
Sullivan repeatedly testified that he did not recognize Williams
at Johnson’s trial. According to Sullivan, he did not recall his
past representation of Williams until Johnson filed a bar
complaint against him in 2007.
Sullivan’s testimony was definitive, consistent, and
plausible given the seven years and hundreds of cases that
passed between his representations of Williams and Johnson.
To be sure, Sullivan’s failure to have and to use a reliable
system for vetting potential conflicts was hardly ideal. But the
only question in this appeal is one of fact concerning Sullivan’s
awareness of the conflict. In crediting Sullivan’s testimony,
the district court did not clearly err.
Johnson offers two main responses, but neither persuades.
First, Johnson argues that Sullivan must have learned about the
prior representation because he used an investigator to find
government witnesses and generally ran public-record searches
on them. But Sullivan testified that, in this case, his
investigator had been unable to find Williams and that he
conducted no background search after receiving from the
government material detailing Williams’s past criminal
history. Second, Johnson notes that Sullivan apparently
believed that he would have to disclose any conflict of interest
to the government, not to Johnson. But even if Sullivan
misunderstood the governing rules, he made no disclosure at
all, which reinforces the district court’s finding that he was
unaware of the conflict.
The district court did not clearly err in finding that
Sullivan, while representing Johnson, had forgotten his prior
representation of Williams. Because an unknown conflict is
not an actual conflict, Johnson’s first Cuyler claim fails.

Page 9 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

10
2
Johnson’s second Cuyler claim arises from Sullivan’s
allegedly conflicting loyalty to Johnson and to himself.
According to Johnson, Sullivan should have argued on appeal
his own ineffectiveness at trial. And given the supposed
conflict of interest, Sullivan’s failure to make the argument
should be analyzed under Cuyler rather than Strickland.
We conclude that there was no conflict, so we need not
decide whether the kind of first-person conflict alleged by
Johnson, if it existed, would trigger Cuyler. The district court
credited Sullivan’s testimony that, while handling the direct
appeal, Sullivan did not believe that he had been ineffective at
trial. This finding was not clearly erroneous—particularly
because, as explained below, Sullivan’s representation at trial
was not constitutionally ineffective. And because Sullivan did
not believe that he had been ineffective, he had no conflict with
Johnson. Johnson’s second Cuyler claim thus fares no better
than his first.
C
We turn now to Strickland. Johnson argues that, even
assuming no conflicts, Sullivan still provided ineffective
appellate assistance. To establish this claim, Johnson must
show that Sullivan performed deficiently and thereby
prejudiced the appeal. Strickland, 466 U.S. at 687. A counsel’s
performance is deficient if it “fell below an objective standard
of reasonableness,” id. at 688, and prejudicial if there is at least
a “reasonable probability” that it affected the outcome of the
proceeding, id. at 694.
We have noted that “when it comes to ineffectiveassistance claims leveled against appellate counsel, there is not

Page 10 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

11
much daylight between Strickland’s deficiency prong and its
prejudice prong.” Waters, 896 F.3d at 570. That is because
“[i]f appellate counsel reasonably opts not to raise an issue with
little or no likelihood of success, then there is usually no
reasonable probability that raising the issue would have
changed the result of a defendant’s appeal.” Id. (quotation
marks omitted).
Johnson rests his Strickland claims on Sullivan’s failure to
raise two arguments in the direct appeal: first, that the
government concealed exculpatory and impeachment evidence
in violation of Brady, and second, that Sullivan failed to
provide effective assistance at trial.
1
The government violates Brady when it “(i) fails to
disclose to the defense, whether willfully or inadvertently, (ii)
exculpatory or impeachment evidence that is favorable to the
accused, and (iii) the withholding of that information
prejudices the defense.” United States v. Straker, 800 F.3d
570, 603 (D.C. Cir. 2015) (per curiam). Prejudice exists if the
withheld evidence is material, which requires “a reasonable
probability that, had the evidence been disclosed to the defense,
the result of the proceeding would have been different.” United
States v. Johnson, 519 F.3d 478, 488 (D.C. Cir. 2008)
(quotation marks omitted). When the government withholds
multiple pieces of evidence, we consider their materiality
cumulatively. Kyles v. Whitley, 514 U.S. 419, 436-37 (1995).
Johnson contends that Sullivan should have raised Brady
claims based on the government’s failure to timely disclose
various pieces of evidence: first, shortly before Johnson’s
indictment, Williams was arrested on robbery charges that the
government declined to prosecute; second, Williams and Keith

Page 11 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

12
Nash both had extensive criminal backgrounds; third, Gary was
a paid government informant, carried a gun on the night of the
shootings, and had a case against her dismissed based on the
intervention of a detective who testified at trial; fourth, Rowel
agreed to speak to the police only after Gary assaulted her.
Johnson contends that this evidence would have bolstered his
claim that Williams pulled the gun used to kill Nash and would
have helped him to impeach the government’s witnesses.
Contrary to Johnson’s arguments, there is almost no
chance that this evidence, much of which was presented to the
jury, would have changed the outcome of the trial if all of it
had been timely disclosed to the defense. All four of the
surviving witnesses other than Johnson agreed on the essential
events of the shootings. Moreover, none of the Brady evidence
would have undercut the testimony of Sharon Nash. And it is
especially unlikely that she would have perjured herself to
protect Williams if it was Williams—rather than Johnson—
who was responsible for killing her brother and seriously
wounding her as well.
Finally, and critically, undisputed forensic evidence
showed that Johnson was the killer. First, recall the seating
arrangements in the car at the time of the shootings. Everyone
agreed that Keith Nash was driving, Johnson was seated in the
far-left rear seat, and Williams was in the far-right rear seat.
Sharon Nash, Williams, Gary, and Rowel all testified that
Sharon was in the front passenger seat, while Johnson testified
that she was in the rear passenger seat to the left of Williams.
Next, consider the evidence about the Nashes’ injuries. A
medical examiner testified that Keith was shot twice on the left
side of his neck, with one of the shots passing through his right
lower cheek. Based on the soot rings on Keith’s neck, he
concluded that the shots were fired from three to four inches
away. Sharon was shot just beneath her left breast.

Page 12 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

13
Now compare that evidence with the two accounts offered
at trial. Everyone but Johnson testified that Johnson, while
sitting behind Keith or partially out of the driver’s side rear
door, put a gun to the back of Keith’s neck while he was in the
driver’s seat. Then Johnson shot Keith twice and fired another
shot into the car, which struck Sharon as she sat in the front
passenger seat. That testimony was entirely consistent with the
evidence that Keith was shot twice on the left side of his neck
from very close range and that Sharon was shot in her left side.
Johnson’s testimony was that Williams, from the far-right
rear seat, pulled a gun on him. In response, Johnson reached
over two other passengers, to Williams on the right side of the
car, and tried to push the gun away. Then, during the ensuing
struggle between Johnson and Williams, bullets from
Williams’s gun hit Keith in the driver’s seat and Sharon, who
Johnson says was sitting to the left of Williams. This testimony
is inconsistent with the forensic evidence. Most damningly, it
cannot explain how Keith was shot in the left side of his neck
from a three- to four-inch distance. Nor, if Sharon was seated
to the left of Williams in the crowded back seat, can it account
for how a bullet struck her left side. None of the Brady material
could alter these basic physical realities.
For these reasons, the disputed evidence was immaterial,
so a Brady claim would have lost on appeal. And Sullivan was
not ineffective “by declining to pursue a losing argument.”
United States v. Watson, 111 F.3d 196, 198 (D.C. Cir. 2013).
2
Johnson’s final argument is that Sullivan was ineffective
on appeal in failing to argue that he had been ineffective at trial.
The supposed ineffectiveness at trial involved Sullivan’s
failure to pursue the Brady material discussed above. This

Page 13 of 14

USCA Case #18-5350

Document #1844764

Filed: 05/29/2020

14
point simply repackages the losing Brady argument. Because
the disputed evidence was immaterial, Sullivan’s failure to
pursue it did not prejudice Johnson. And because a claim of
ineffective trial counsel thus would have been unsuccessful,
Sullivan was not ineffective in omitting it from the appeal.
*

*

*

Because Johnson was not denied the effective assistance
of appellate counsel, we affirm the district court’s judgment.
So ordered.

Page 14 of 14

APPENDIX B

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 1 of 23

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

DUANE JOSEPH JOHNSON,
Petitioner,
v.

Civil Action No. 10-178 (JEB)

E.D. WILSON,
Respondent.

MEMORANDUM OPINION
Petitioner Duane Joseph Johnson was convicted over twenty years ago in D.C. Superior
Court. The charges stemmed from a drug-deal-tumed-robbery and included murder, assault,
robbery, and firearms offenses. Following an unsuccessful direct appeal, Petitioner has spent the
intervening decades attempting to obtain collateral relief, first from D.C. courts and now from
federal. At this point, his claims have narrowed to a single, fundamental contention: his
appellate (and trial) counsel, Frederick J. Sullivan — who subsequently became a Superior Court
Magistrate Judge and has now retired — was ineffective.
U.S. Magistrate Judge G. Michael Harvey, to whom the case was referred, has considered
Johnson’s claims in a comprehensive Report and recommends that his Petition be denied. See
ECF No. 115 (Report and Recommendation). Although Johnson now raises several objections to
that Report, the Court agrees with Judge Harvey’s careful analysis. It will thus adopt the Report
and Recommendation in full and grant judgment to Respondent.

1

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 2 of 23

I.

Background
A.

Conviction and Direct Appeal

The full factual background of this case is set out in detail in the 68-page Report. To
recap briefly here, in 1995, Petitioner, who was represented by Judge Sullivan, was convicted in
D.C. Superior Court of murder, assault, robbery, and firearms offenses arising from events in the
early morning of April 26, 1994. See R&R at 1-2.
The Government’s evidence at trial demonstrated how the murders resulted from an
attempted robbery of drug proceeds. Sharon Nash testified that she, Keith Nash, Victor
Williams, and Latina Gary went out in Keith Nash’s car to buy cocaine. Id. Having made their
purchase, they were getting ready to leave when Petitioner, accompanied by Damitra Rowell, ran
up to them and asked for a ride. Id. at 3. After Johnson and Rowell entered the car, Petitioner
directed the driver to a dead end and told Keith Nash to turn off the engine. Id Johnson then got
out of the car and stood at its rear left side. Id Sharon Nash saw him point a gun at Keith
Nash’s head and demand the money the group had used to buy drugs. Id Informed that the
money had already been spent, Johnson fired three shots, two of which fatally struck Keith Nash
and one of which wounded Sharon Nash. Id
The Government’s remaining three eyewitnesses — Gary, Rowell, and Williams —
largely corroborated Sharon Nash’s description of the evening up to the purchase of the drugs
and the agreement to give Petitioner and Rowell a ride. Id. at 3-4. Their accounts diverged
slightly as to the shooting and its aftermath. Rowell testified that the day after the shooting,
Petitioner approached her, “gave [her] a story to tell” — although she never specified what that
story was — and threatened to kill her if she did not comply. Id at 5. Williams testified that,
when Petitioner pulled out the gun, he threatened to kill everyone in the car, and, after musing

2

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 3 of 23

about whom to kill first, shot Keith Nash in the head and then aimed the gun at the backseat. Id
Williams struggled with Petitioner, who then fled. Id. Gary also testified to Johnson’s struggle
with Williams and further explained that, after Petitioner fled, Rowell followed, shouting at him.
Id. at 6.
A medical examiner offered testimony corroborating the Government’s version of events.
He testified that Keith Nash was killed from a close-range shot that struck the left rear of his
neck and exited through his lower cheek. Id. at 7. A second bullet struck near the first but did
not exit. Id. Sharon Nash was wounded by a shot to the left side of her abdomen. IcL Those
three wounds are consistent with the theory that both were sitting in the front seat when they
were shot by a person standing at the left rear side of the car. Id.
Johnson was the only defense witness. Id He testified that he was selling drugs when he
was approached by Williams, who discussed the purchase of some cocaine. Id. When Williams
said he had a customer for Johnson around the comer, they went to Keith Nash’s car. Id at 8.
Johnson asked Rowell to accompany him because he was feeling uncomfortable about the
transaction. Id. After they all got into the car, Williams directed Keith Nash into the alley. Id
When the car stopped, Williams pulled a gun on Petitioner and demanded drags and money. Id
The two struggled for the gun inside the car, and during the struggle, it fired several times. Id.
Eventually Johnson got free and fled the car, with Williams shooting after him. Id
On January 19, 1995, a D.C. Superior Court jury found Petitioner guilty of first-degree
felony murder while armed, second-degree murder while armed, assault with intent to kill while
armed, assault with a deadly weapon, attempt to commit robbery while armed, possession of a
firearm during a crime of violence, and carrying a pistol without a license. Id at 9.

3

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 4 of 23

Cumulatively, Johnson was sentenced to an indeterminate term of imprisonment of 77 years to
life. Id.
On February 12, 1996, he appealed his conviction and sentence to the D.C. Court of
Appeals. Id Judge Sullivan again represented him. Id The Court of Appeals held that
Johnson’s appeal lacked merit but, as is typical in such circumstances, remanded the case for re­
sentencing because the second-degree murder and attempted-robbery convictions merged with
the felony-murder conviction. Id. at 9-10. Johnson was then resentenced to 46 years to life. Id
at 10.
B.

Collateral Review

Petitioner’s collateral-review efforts have been lengthy. In brief, after his unsuccessful
direct appeal, Johnson filed letters in D.C. Superior Court asserting ineffective assistance of trial
counsel. Id Following an evidentiary hearing before Judge Russell Canan, Johnson’s motion
was denied. Id at 11. He appealed that decision as well, but the D.C. Court of Appeals affirmed
in a five-page Memorandum Opinion and Judgment on August 17, 2001. See Johnson v. United
States, No. 99-CO-978 (D.C. Aug. 17, 2001) (attached to this Opinion as Appendix A). He filed
a motion in late 2005 again alleging ineffective assistance at trial, and then in early 2006 he filed
another motion alleging Brady violations and ineffective assistance of both trial and appellate
counsel. Id. at 12.
While these motions were pending, Petitioner discovered that Judge Sullivan had
previously represented Williams in a criminal trial in 1985. Id at 12-13 & n.8. In April 2007,
he thus filed another motion in Superior Court to amend his 2006 motion based on his counsel’s
alleged conflict of interest. Id. at 13. While the conflict claim was pending in Superior Court,
Johnson also filed in the D.C. Court of Appeals, seeking relief for ineffective assistance of

4

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 5 of 23

appellate counsel based on the conflict during the direct appeal. Id. at 14. The Court of Appeals
denied Johnson’s motion to recall the mandate “without prejudice to the trial court’s
consideration of the alleged conflict of interest of [Petitioner’s] trial counsel (who was also
appellate counsel).” ]d at 15 (citation omitted).
Back in Superior Court, Judge Canan denied Johnson’s motions in a thorough and
detailed 34-page opinion. See ECF No. 63-10 (Judge Canan Opinion). Treating extensively
many of the specific claims Petitioner now reiterates here, he concluded that Judge Sullivan’s
representation had been effective and not hampered by conflict. Id at 23-26. Judge Canan also
found the Brady claims unpersuasive. Id at 31. Petitioner subsequently filed four additional
motions between October 2008 and June 2010 in Superior Court and the D.C. Court of Appeals.
See R&R at 17-18. All four were denied. Id.
Hoping for better luck in a change of venue, on January 29, 2010, Johnson filed his first
petition in federal court, raising a variety of claims. Id at 19. All except the claim for
ineffective assistance of appellate counsel (IAAC) were dismissed because the petition was not
the proper method of redress. Id. Petitioner therefore in February 2013 filed the operative
Petition alleging IAAC, which was originally assigned to Judge Amy Berman Jackson. Id. at 20.
Once counsel appeared on Petitioner’s behalf in February 2014, Judge Jackson referred the
matter to Judge Harvey for a Report and Recommendation. Id. at 22.
Judge Harvey, before penning a remarkably thorough 68-page Report, held an
evidentiary hearing, at which he took testimony from Judge Sullivan, CJA Investigator Brendan
Andrew Wells, and Petitioner. Id at 22-25. Judge Harvey then carefully analyzed the testimony
and made a series of credibility findings. He determined that Judge Sullivan was credible,
“candid[,] and non-evasive,” and that he was not ineffective as appellate counsel. Id. at 1, 36.

5

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 6 of 23

On August 14, 2018, the case was randomly transferred from Judge Jackson to this Court, which
now issues its Opinion.
II.

Legal Standard
Under Federal Rule of Civil Procedure 72(b), once a magistrate judge has entered her

recommended disposition, a party may file specific written objections. The district court “must
determine de novo any part of the magistrate judge’s disposition that has been properly objected
to.” Fed. R. Civ. P. 72(b)(3); see, e.g.. Winston & Strawn LLP v. FDIC, 841 F. Supp. 2d 225,
228 (D.D.C. 2012) (stating that court must conduct de novo review of objections to magistrate
judge’s report and recommendation). The district court may then “accept, reject, or modify the
recommended disposition.” Fed. R. Civ. P. 72(b)(3).
III.

Analysis
Petitioner raises three sets of objections to the Report, targeting Section III.A on

Antiterrorism and Effective Death Penalty Act deference, Section III.C on the alleged conflict of
appellate counsel, and Section III.D on other ineffective-assistance-of-appellate-counsel claims.
The Court addresses each in turn.
A.

Section III.A: AEDPA Deference

As AEDPA governs federal courts’ habeas jurisdiction over state-court decisions, there
are two questions of AEDPA deference here — legal and factual — which the Court will take in
order. Federal courts addressing exhausted habeas claims must generally defer to a state court’s
legal conclusions. See 28 U.S.C. § 2254(d); Harrington v. Richter. 562 U.S. 86, 101-03 (2011).
Petitioner nevertheless contends that no deference is appropriate in his case because D.C. courts
did not pass on his IAAC claims; as a result, he believes that the Report erred to the extent it
“suggests that deference is owed to [D.C. courts’] prior legal conclusions.” ECF No. 120

6

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 7 of 23

(Petitioner’s Objections) at 11. Judge Harvey, however, neither concluded that such deference
was owed, nor at any point did he defer to state-court conclusions. This is because he
determined — and this Court agrees — that it was unnecessary to resolve the appropriate scope
of deference where Petitioner could not prevail even if no deference were given. Id. at 32-33.
Petitioner elaborates that, even if the R&R “did not arrive at a firm conclusion,” this Court
should find error because “Judge Harvey appears to have partially relied on D.C. courts’ prior
decisions” on pages 51 and 53 of the Report. Id. at 11 n.8. Although the Report recites those
rulings, it does not rely on them. See R&R at 51, 53. As no legal deference appears in the
Report, the Court need not further discuss this point.
As to deference to factual conclusions, conversely, Judge Harvey concluded — and this
Court agrees — that “factual findings of the D.C. Courts are entitled to deference,” as mandated
by 28 U.S.C. § 2254(e)(1), which “stat[es] that ‘determination of a factual issue made by a State
court shall be presumed to be correct.’” Id. at 31 n.15. Johnson asserts that “presumption may
be rebutted with ‘clear and convincing evidence.’” Pet. Obj. at 12. Petitioner, however, does not
point to such evidence, nor does he elaborate on his assertion that the D.C. courts’
“determinations, were made on materially incomplete records and were grounded in incorrect
legal principles, and thus are not entitled to AEDPA’s presumption of correctness.” Id Absent a
reasoned explanation of why no deference is owed, this Court is compelled to conclude that
AEDPA mandates deference to factual findings.
B.

Section III.C: Conflict Claims

Petitioner next raises a series of challenges to Section III.C of the Report, which
addresses his IAAC claim based on an alleged conflict of interest. Specifically, Johnson objects
to Judge Harvey’s findings that Judge Sullivan was credible; that no adverse inference was

7

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 8 of 23

appropriate based on Judge Sullivan’s treatment of Petitioner’s case files; and that his claims had
to satisfy the Strickland standard, as opposed to the more lenient Cuvier standard, to warrant
relief. See Pet. Obj. at 13, 16, 20. If Judge Harvey had decided these questions differently, that
could have led to a different outcome on the conflict issue.
1.

Credibility

Beginning with the first of these, Johnson furnishes an array of putative inconsistencies in
Judge Sullivan’s testimony. IcL at 13-16. Judge Harvey took that testimony at an evidentiary
hearing, and, having done so, determined that Judge Sullivan’s “demeanor was open and his
answers . . . candid and non-evasive.” R&R at 36. Johnson does not challenge that finding.
Each of the challenges he does raise to Judge Sullivan’s credibility based on the substance of his
testimony, moreover, was squarely and persuasively addressed by Judge Harvey. Upon its own
examination of the transcript, the Court agrees and has little to add.
Petitioner first argues that Judge Sullivan was inconsistent in his explanations for failing
to recognize that he had previously represented one of the Government’s witnesses — Victor
Williams — in a prior criminal trial, alternately citing a misspelling in his database of clients and
asserting that he did not run conflict checks through the database or otherwise. See Pet. Obj. at
13-14. Judge Harvey carefully reviewed and extensively quoted Judge Sullivan’s relevant
statements in D.C. Superior Court and in the response to a D.C. Bar Complaint filed by
Petitioner and came to the conclusion — shared by this Court — that Judge Sullivan had not
been inconsistent. See R&R at 36-38. In neither case did he assert that the misspelling caused
him to overlook his prior representation at Williams; he merely stated that the name was
misspelled. At the evidentiary hearing, Judge Sullivan said directly that the misspelling “really

8

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 9 of 23

had nothing to do with [not realizing the prior representation,]” and it was that neither of them
“recognizefd]” each other at trial. See ECF No. 102 (Transcript) at 89:2-5.
Johnson also maintains that Judge Sullivan was inconsistent in describing the extent to
which he investigated Williams before trial and that a reasonable pretrial investigation would
have uncovered the prior Williams representation. See Pet. Obj. at 14, 15-16. Again, Petitioner
misses the mark. As the Report explains, Judge Sullivan was consistent in explaining he would
have tried to find and interview government witnesses for trial, although not for the appeal. See
R&R at 38-39. Petitioner’s objection centers on a statement that before trial Judge Sullivan “did
nothing to investigate Victor Williams’s criminal history . .. because he didn’t feel it was
necessary.” Pet. Obj. at 14 (internal quotations and citation omitted). There, Johnson is citing to
a portion of Judge Sullivan’s testimony where he explains that he would not necessarily have
investigated Williams’s past convictions, see Tr. at 55:12, a statement not inconsistent with his
explanation that he tried to “find” and “get a statement from [Williams]” as part of a more
general pretrial investigation. Id at 52:6.
Nor was Judge Sullivan’s account of his pretrial investigative process generally
inconsistent. Contrary to Petitioner’s representation, Judge Sullivan did not indicate that “he
could not think of a situation in which he would not have conducted the required research with
respect to a government witness.” Pet. Obj. at 16 (citing Tr. at 44:18-23). Rather, he testified
that “there were” circumstances in which he would not run a government witness in the database,
“but what they were, [he did not] know.” Tr. 44:20-21. His testimony, read fairly, explains his
general practices but acknowledges some uncertainty about specifics and exceptions given the
amount of time that has now passed. Even if Williams had been run in the database in this case,
as Judge Harvey explained in the Report, see R&R at 39-40, that research would not necessarily

9

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 10 of 23

have uncovered the prior representation because of the way the case database was structured and
the amount of time required to obtain case jackets. See ECF No. 103 (Evidentiary Hearing
Continued Transcript) at 51:1-18, 54:3-25, 55-57.
Finally, Petitioner urges that Judge Sullivan was not consistent in his description of his
file-retention policies. See Pet. Obj. at 15 & n.10. The only putative inconsistency that Johnson
highlights is that between Judge Sullivan’s testimony that he generally kept Bar complaints as
part of a “complete file”; that he discarded files from before his judgeship when he joined the
bench in September 2005; but that he nevertheless had disposed of Petitioner’s April 13, 2007,
complaint to Bar Counsel. Id. at 15 n. 10. Even assuming Judge Sullivan had not testified clearly
as to his practice with complaints after he joined the bench, he was clear in May 2007, in a letter
replying to Bar Counsel, that he could not respond fully to the complaint without seeing
Johnson’s file, which he had, years earlier, returned to him. See ECF No. 78-24 (Letter to Bar
Counsel) at 1; see also R&R at 41. That returning a file to a client might have caused Judge
Sullivan to depart from his file-retention policies in one instance does not cast doubt on the
credibility of his testimony generally or even as to the essentials of his retention policy.
2.

Adverse Inference

Petitioner also objects to the Report’s determination that no adverse evidentiary inference
was warranted based on Judge Sullivan’s “improper disposal of Petitioner’s client files.” Pet.
Obj. at 16. As an initial matter, Judge Harvey found that Judge Sullivan was credible in
testifying that he never disposed of Johnson’s file but rather returned it to him. See R&R at 41.
Examining the transcript and other evidence, this Court agrees. See Letter to Bar Counsel at 1;
Tr. at 19, 30. As a result, although the Court appreciates Petitioner’s difficulty in proving a
negative, see Pet. Obj. at 18, it has no basis to doubt the determination that the file was returned

10

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 11 of 23

to Johnson. To the extent Johnson relies, as he did before Judge Harvey, on D.C. Bar Legal
Ethics Opinion 206 to show that Judge Sullivan had an obligation to retain his files, Judge
Sullivan discharged any such obligation by returning the files to Petitioner. See D.C. Bar Legal
Ethics Opinion 206 at 339 (1989).
Even if the Court were not to credit that determination, moreover, it finds that Petitioner
has not established at least two of the three requirements for adverse inference. As Judge Harvey
noted, “[T]o merit imposition of an evidentiary sanction, the proponent must establish” three
things: an obligation to preserve the evidence; a culpable state of mind in the destruction or loss
of the evidence; and the relevance of the destroyed or altered evidence to the claims or defenses
of the party seeking it. See R&R at 40 (citing Ashraf-Hassan v. Embassy of France in the United
States. 130 F. Supp. 3d 337, 340 (D.D.C. 2015)).
Johnson has not adduced any evidence of a culpable state of mind. Petitioner relies on
Elliott v. Acosta, 291 F. Supp. 3d 50 (D.D.C. 2018), for the proposition that he need not show
bad faith, but only that Judge Sullivan’s actions were “deliberate.” ECF No. 122 (Pet. Reply) at
12. Elliott, in fact, holds that a claimant need not show purposefulness and that negligence will
suffice. See 291 F. Supp. 3d at 68. In other words, the case does not stand for the proposition
that any non-accidental disposal is culpable. And here, Johnson has not adduced any facts to
show that any disposal was either purposeful or negligent.
Finally, Johnson has not shown that a “reasonable factfinder could conclude” that the
files would have supported his claims here. See Ashraf-Hassan. 130 F. Supp. 3d at 340.
Petitioner insists that “[w]hat Judge Sullivan’s records could prove about what Judge Sullivan
knew about his representation of Victor Williams and Williams’s prior arrest records, would
have been critical to Petitioner’s habeas claims.” Pet. Obj. at 19. What is not clear —

11

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 12 of 23

particularly given Judge Sullivan’s repeated and credible testimony that had he recognized
Williams at the time, he would have notified all parties and the court, see Tr. 76:24-25, 77:1-9,
77:25, 89:2-8, 94:1-15 — is what document or set of notes Johnson believes would prove
useful.
3.

Cuyler Standard

Next, Petitioner cites error in Judge Harvey’s decision not to accord him relief for his
ineffective-assistance claims under the Cuvier standard — i.e., if a counsel’s conflict of interest
adversely affected her performance, prejudice is presumed. See Cuvier v. Sullivan, 446 U.S. 335
(1980). This standard is satisfied where “appellate counsel labored under an actual conflict of
interest that adversely affected his performance.” R&R at 43 (citing U.S. v. Gantt. 140 F.3d 249,
254 (D.C. Cir. 1998)). “The sine qua non of such a claim is that the attorney knew of the
conflict during the challenged representation.” Id (citing U.S. v. Berkeley. 567 F.3d 703, 709
(D.C. Cir. 2009)). As Judge Harvey concluded, to the extent “Judge Sullivan’s testimony
concerning his failure to recall his representation of.. . Williams [is] credible[,] .. . Petitioner’s
conflict of interest claims under Cuyler .. . fail.” Id.
Petitioner does not challenge that reasoning beyond reasserting his objections to the
credibility findings addressed above. Instead, he principally presses an alternate theory —
namely, that Judge Sullivan could be said to have been laboring under an actual conflict to the
extent he had a “personal interest in avoiding ineffective assistance of trial counsel claims.” Pet.
Obj. at 20. In other words, since Judge Sullivan himself was the trial counsel, he did not want to
press the theory on appeal that he had been ineffective at trial.
Here, the Court departs slightly from Judge Harvey’s reasoning but reaches the same
j

result — i.e., that Johnson cannot prevail under the Cuyler standard pursuant to this theory

12

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 13 of 23

either. The Report concludes that the Circuit has foreclosed this argument because it has
“rejected . .. ‘attempts to force their ineffective assistance claims into the actual conflict of
interest framework ... and thereby supplant the strict Strickland standard with the far more
lenient Cuvier test.’” R&R at 44 n.27 (quoting United States v. Bruce. 89 F.3d 886, 893 (D.C.
Cir. 1996)). The Circuit did clarify, though, that “[i]f an attorney fails to make a legitimate
argument because of the attorney’s conflicting interest,... then the Cuvier standard has been
met.” Bruce. 89 F.3d at 896. It subsequently elaborated that counsel’s interest in avoiding an
advice-of-counsel defense where raising that defense would reveal counsel’s inaccurate legal
advice could qualify as a conflict under Cuvier. See U.S. v. Taylor. 139 F.3d 924, 932 (D.C. Cir.
1998). The court cautioned, however, that an attorney must actually “be forced to make a choice
advancing his own interest at the expense of his client’s,” and that “a hypothetical conflict
having no effect on . . . counsel’s representation [is not] enough to come within Cuvier’s reach.”
Id. at 930-31 (citations omitted).
The Court finds that Petitioner has raised only such a hypothetical conflict. As an initial
matter, the Court is given some pause by the attempt to bootstrap the ineffective-assistance-oftrial-counsel claim into a proceeding where the Court lacks jurisdiction to adjudicate it. Even
assuming this Court can address the substance of the claim, it lacks merit for two independent
reasons. First, it is plain that Judge Sullivan at the time of appeal believed himself to have been
effective trial counsel. SeeTr. at 103:15-25, 104:1-24, 105:5-25, 106:1-20, 107:21-25, 108:121, 109:23-5; 110:1-16; Continued Tr. at 19:10-16. Such belief defeats any Cuvier claim
because, for Cuvier to apply, an attorney must be aware of his conflict during the challenged
representation. See Berkeley. 567 F.3d at 709.

13

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 14 of 23

Second, where, as here, the Court finds there was no colorable ineffective-assistance-oftrial-counsel claim, any conflict would be “hypothetical,” as counsel was not “forced to make a
choice advancing his own interest at the expense of his client’s.” Taylor, 139 F.3d at 930-31.
Having reviewed the D.C. Court of Appeals’s analysis of the ineffective-assistance-of-trialcounsel arguments, the Court agrees with — without deferring to — its conclusion that Judge
Sullivan was an effective trial counsel. See Johnson, No. 99-CO-978. Although Petitioner now
maintains that Judge Sullivan was ineffective because he did not reasonably research and prepare
or develop a defense theory of the evidence, see Pet. Obj. at 21, the Superior Court, after a
hearing at which both Petitioner and Judge Sullivan testified, found that “counsel understood
[Petitioner’s] version of events,.. . [he] reviewed the testimony,. .. [and he] sat down on more
than one occasion to go over extensively what he perceived to be [Petitioner’s] version of this
particular event.” Johnson. No. 99-CO-978 at 3 (internal quotation marks and citation omitted).
This Court defers to those factual findings and independently concludes that Judge Sullivan’s
preparation and performance were reasonable. As to Petitioner’s final argument — that Judge
Sullivan was ineffective in failing to raise “numerous problems with the discovery at trial,” Pet.
Obj. at 21 — the Court assumes he is referring to the Brady issues addressed in the next section.
In short, however, they likewise provide no basis on which to conclude Judge Sullivan was
ineffective at trial.
C.

Section III.D: Other IAAC Claims

Petitioner last argues that Section III.D of the Report — which addresses his
ineffectiveness claims unrelated to conflict — suffers from essentially two legal errors, both
having to do with his contention that Judge Sullivan was ineffective for failing to raise a variety
of Brady claims. Judge Harvey found that Judge Sullivan could have been ineffective on that

14

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 15 of 23

basis only if the Brady claims “would likely have succeeded on appeal,” R&R at 50 (citation
omitted), and that none of the claims met that standard. Id. at 55-56. Taking Petitioner’s two
objections in turn, the Court agrees with the Report’s analysis.
1.

Cumulative Effect

Johnson first contends that the Report erred because it did not address the cumulative
effect of the Brady claims, but rather assessed them in isolation. See Pet. Obj. at 22. Petitioner
is correct that courts must cumulatively evaluate the materiality of wrongfully withheld
evidence. See Wearry v. Cain. 136 S. Ct. 1002, 1007 (2016) (citing Kyles v. Whitney. 514 U.S.
419, 441 (1995)). Evidence is “material” if it “could reasonably be taken to put the whole case
in such a different light as to undermine confidence in the verdict.” R&R at 49 (quoting Banks
v. Dretke, 540 U.S. 668, 698-99 (2004)). The Report, however, does invoke those standards
before concluding that “Petitioner fails here because he has not established a Brady violation in
the first instance.” Id. at 50.
Even assuming the Report could have more explicitly assessed the cumulative effect of
the claims, it would not have made a difference because two of the three pieces of evidence
Petitioner points to were not withheld, and the third is not material. Specifically, in his
Objections, Petitioner highlights that: (1) Gary sought out Rowell to beat her before Rowell
talked to the police; (2) Gary surrendered Keith Nash’s gun to the police after the shooting; and
(3) Williams’s 1994 arrest for armed robbery was not papered by prosecutors. See Pet. Obj. at
24. The first two facts were disclosed at trial, see R&R at 51, and Petitioner has not even
attempted to establish, as he must to succeed on this claim, prejudice from disclosure at — rather
than preceding — trial. Id. at 51-52 (citing United States v. Clarke, 767 F. Supp. 12, 40—41
(D.D.C. 2011)). As to Williams’s 1994 arrest, which Petitioner contends “would have been

15

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 16 of 23

admissible to show that Williams was biased or had motivation to curry favor with the
[G]ovemment,” Pet. Obj. at 24, there is a closer question. Johnson, however, never explains why
the particular circumstances of the Government’s decision not to prosecute an earlier case would
have led to bias here. More importantly, there were three other eyewitnesses to the murder with
substantially similar testimony and corroborating forensics such that the Court cannot conclude
that the admission of the Williams evidence would have undermined confidence in the verdict.
See also R&R at 55-56. Even accumulated, then, this evidence would not give the Court pause
to revisit the jury’s decision.
2.

Brady Standard

Next, and relatedly, Johnson contends that the Report applied the incorrect standard to his
Brady claims, invoking sufficiency of the evidence to support his conviction rather than
sufficiency of the withheld evidence to undermine confidence in the verdict, and that, more
specifically, Judge Harvey incorrectly analyzed the 1994 arrest as though it had to be outcome
determinative. See Pet. Obj. at 25-26. As should be clear from the previous analysis, the first
argument is curious, as the Report did employ the standard that Petitioner maintains is proper.
See R&R at 49-50. Likewise, as to the treatment of the arrest, Judge Harvey never concluded it
had to be outcome determinative for the claim to succeed. Rather, he determined — and this
Court cannot disagree — that because there was a great deal of corroborating evidence, the
introduction of the arrest would not have undermined confidence in the verdict. To support that
conclusion, in part, he cites to United States v. Lampkin, 159 F.3d 607 (D.C. Cir. 1998), to
which Petitioner objects because Lampkin is not a Brady case. See Pet. Obj. at 26. That may be
true, but Petitioner himself relied upon Lampkin, see R&R at 55, and the case nevertheless
stands for the proposition that when evidence related to a no-papered arrest is wrongfully

16

Case l:10-cv-00178-JEB-GMH Document 125 Filed 10/25/18 Page 17 of 23

withheld, that fact does not “undennine[] confidence in the conviction” where that witness’s
testimony was supported by ample other evidence. See Lampkin, 159 F.3d at 612, 613 (quoting
United States v. Yunis, 924 F.2d 1086, 1096 (D.C. Cir. 1991)).
IV.

Conclusion
For the foregoing reasons, pursuant to Local Civil Rule 72.3(c), the Court will adopt

Magistrate Judge Harvey’s April 11, 2018, Report and dismiss the case. A separate Order
consistent with this Opinion will issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: October 25, 2018

17

APPENDIX C

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 1 of 68

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
DUANE JOSEPH JOHNSON
Petitioner,
v.

)
)
)
)

)

ERIC D. WILSON,
Respondent.

Case No. l:10-cv-00178 (ABJ/GMH)

)
)
)
)

REPORT AND RECOMMENDATION
Petitioner Duane Joseph Johnson brings this petition for a writ of habeas corpus pursuant
to 28 U.S.C. § 2254, challenging his conviction in 1995 by a D.C. Superior Court jury of various
murder, assault, robbery, and firearms offenses. Petitioner’s primary argument charges his
appellate counsel with ineffective assistance because counsel was purportedly laboring under a
conflict of interest. Petitioner also advances a garden-variety ineffective assistance of appellate
counsel claim, as well as attacking various alleged errors at the trial. After this action was referred
to the undersigned for a Report and Recommendation, the Court held an evidentiary hearing
regarding the ineffective assistance claims. The operative Third Amended Petition (“Petition”) is
now ripe for adjudication.1 Upon consideration of the entire record, and for the reasons that follow,
the undersigned recommends that the Petition be denied.

1 The most relevant docket entries for purposes of this Report and Recommendation are Petitioner’s Third Verified
Amended Petition for Writ of Habeas Corpus [Dkt. 42]; United States’ Opposition to Petitioner’s Third Verified
Amended Petition for Writ of Habeas Corpus [Dkt. 63] and Exhibits [Dkts. 63-1 through 63-16]; Petitioner’s Reply
to Respondent’s Supplemental Response to the Court’s Order to Show Cause [Dkt. 69] and Exhibits [Dkts. 69-1
through 69-16]; Petitioner’s Praecipe [Dkt. 73] and Exhibits [Dkts. 73-1 through 73-11]; Petitioner’s Supplemental
Brief in Support of His Petition for Writ of Habeas Corpus [Dkt. 78] and Exhibits [78-1 through 78-42]; (4) United
States’ Opposition to Petitioner’s Supplemental Brief in Support of His Petition for Writ of Habeas Corpus Pursuant
to 28 U.S.C. § 2254 [Dkt. 79] and Exhibits [Dkts. 79-1 through 79-6]; Petitioner’s Reply in Support of His Petition
for Writ of Habeas Corpus [Dkt. 81]; Order dated October 7, 2016 [Dkt. 84]; Transcript of Proceedings of July 20,

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 2 of 68

I.
A.

BACKGROUND

The Trial

Petitioner was charged with crimes committed in the early morning of April 26, 1994,
while Petitioner was in a parked car with five other people—Victor Williams, Keith Nash, Sharon
Nash, Damitra Rowell, and Latina Gary. During an attempted robbery following a drug deal, shots
were fired from the left rear side of the car, killing Keith Nash and wounding Sharon Nash, both
of whom were sitting in the front seat. The following evidence was adduced at trial, where
Petitioner was represented by Frederick J. Sullivan, who later became a Magistrate Judge on the
D.C. Superior Court.2
Sharon Nash testified that, during the evening of April 25 through the early morning of
April 26, 1994, she was at home with various family members, including her brother Keith Nash,
getting high on cocaine and heroin and drinking. [Ex. P-22 at 18; Dkt. 63-7 at 13; Dkt. 78-18 at
6]. At approximately 3:00 a.m., her friends Victor Williams and his girlfriend, Latina Gary, joined
them. [Ex. P-22 at 18; Dkt. 63-7 at 13; Dkt. 78-18 at 6]. Thirty minutes later, Ms. Nash, Mr. Nash,
Mr. Williams, and Ms. Gary left in Mr. Nash’s car and eventually ended up at 21st Street and
Maryland Avenue in the Northeast quadrant of Washington, D.C., to buy more cocaine. [Ex. P22 at 18-20; Dkt. 63-7 at 13; Dkt 78-18 at 6-7]. Mr. Williams, and then Mr. Nash, left the car and
returned with two dime bags of cocaine, which they gave to Ms. Nash. [Ex. P-22 at 21; Dkt. 78-

2017 [Dkts. 102 and 103]; Petitioner’s Post-Hearing Memorandum in Further Support of his Petition for a Writ of
Habeas Corpus [Dkt. 104] and Exhibits [Dkts. 104-1 through 104-4]; United States’ Post-Hearing Memorandum in
Opposition to Petitioner’s Petition for a Writ of Habeas Corpus [Dkt. 108]; Petitioner’s Post-Hearing Reply
Memorandum in Further Support of his Petition for a Writ of Habeas Corpus [Dkt. 109]; Petitioner’s Notice of
Supplemental Authority in Response to Order of Court Entered January 16, 2018 [Dkt. 112]; United States’ PostHearing Citation List [Dkt. 113]; and Transcript of Proceedings of January 16, 2018 [Dkt. 114]. In addition, the
transcript from Petitioner’s trial was included as exhibits P-22 through P-25 at the evidentiary hearing held on July
20,2017. These will be designated “Ex. P-[number].”
2 Although Judge Sullivan was not a judge at the time of his representation of Petitioner, the undersigned will refer to
him as Judge Sullivan throughout this Report and Recommendation.

2

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 3 of 68

18 at 7], As they were about to leave, Petitioner, whom Ms. Nash knew as “Key Bo,” ran to her
side of the car and asked for a ride. [Ex. P-22 at 21-22; Dkt. 73-1 at 21; Dkt. 78-18 at 7]. Mr.
Nash agreed to give him a ride, and Petitioner and Ms. Rowell got into the car. [Ex. P-22 at 2223; Dkt. 73-1 at 21; Dkt. 78-18 at 7],

Mr. Nash was driving, and Ms. Nash sat in the front

passenger seat; Petitioner sat in the back left seat behind Mr. Nash, with Ms. Gary, then Ms.
Rowell, then Mr. Williams arranged next to him to his right. [Ex. P-22 at 26-28; Dkt. 73-1 at 21;
Dkt. 78-18 at 7].

Petitioner directed Mr. Nash to a dead end, and told him to turn off the car.

[Ex. P-22 at 28-29; Dkt. 73-1 at 21; Dkt. 78-18 at 7]. Petitioner got out of the car, standing on the
back left side of the vehicle, and Ms. Nash then saw a gun in Petitioner’s hands, pointed at Mr.
Nash’s head. [Ex. P-22 at 29-30, 37, 52; Dkt. 73-1 at 21; Dkt. 78-18 at 7]. Petitioner demanded
the $20 that the party had brought to buy drugs, and was told that it had already been used to
purchase drugs. [Ex. P-22 at 29-30; Dkt. 73-1 at 21; Dkt. 78-18 at 7].

Meanwhile, Ms. Nash

was trying to give Mr. Nash a gun that she had taken from him earlier. [Ex. P-22 at 31-32; Dkt.
73-1 at 21; Dkt. 78-18 at 7].

She was not clear whether she gave him the gun before or after

Petitioner fired three shots, two of which hit Mr. Nash and one of which hit her. [Ex. P-22 at 3233, 34-35, 51]. Ms. Nash then got out of the front seat and into the back seat. [Ex. P-22 at 33;
Dkt. 78-18 at 8]. On cross-examination, she stated that Mr. Williams had a gun in his possession
earlier that night and that he and Petitioner had struggled in the back seat prior to the shooting.
[Ex. P-22 at 44-45, 60, 65-66; Dkt. 63-7 at 13; Dkt. 78-18 at 8],
The government’s remaining three eyewitnesses largely corroborated Ms. Nash’s version
of the events. For example, Mr. Williams and Ms. Gary related that they arrived at Ms. Nash’s
house in the early morning of April 26, 1994, to take drugs, after which the group left to replenish
their supply, ending up in the area round 21st Street and Maryland Avenue, NE, searching for

3

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 4 of 68

crack. [Exh P-22 at 212-13, 294; Dkt. 63-7 at 13-14; Dkt. 78-18 at 9, 11]. Ms. Rowell—who had
been sitting in front of a residence at 1118 24th Street, NE, speaking with Petitioner, whom she
also knew as Key Bo—reported seeing the group enter the area in Mr. Nash’s car. [Ex. P-22 at
75]. Like Mr. Williams and Ms. Gary, she testified that Mr. Williams got out of the car to talk to
Petitioner. [Ex. P-22 at 76-77, 215, 296-97; Dkt. 78-18 at 8-9,11]. Each of those three witnesses
asserted that the group sought to purchase cocaine from Petitioner, who refused to sell at the price
offered; Mr. Williams and Ms. Gary specified that the group in the car sought to buy two dime
bags for $15, rather than the $20 Petitioner was charging. [Ex. P-22 at 78, 115-16, 215, 296-98;
Dkt. 78-18 at 8-9, 11]. They ended up purchasing the drugs elsewhere. [Ex. P-22 at 216, 29698; Dkt. 78-18 at 9, 11]. Ms. Rowell, Mr. Williams, and Ms. Gary agreed with Ms. Nash that Mr.
Nash ended up driving them all to an alley in the area, with Petitioner sitting behind Mr. Nash in
the back left seat, Mr. Williams behind Ms. Nash, who was in the front passenger seat, and Ms.
Gary and Ms. Rowell between them. [Ex. P-22 at 81, 217, 222, 300; Dkt. 73-1 at 21-22, 27; 7818 at 8-9, 11].
The other three eyewitnesses’ descriptions of the shooting and its aftermath diverge slightly
in some of the details. Ms. Rowell testified that, after they reached the alley, Petitioner got out of
the car,3 put a gun to Mr. Nash’s head, and shot him. [Ex. P-22 at 83-84, 120-21; Dkt. 78-18 at
8]. Meanwhile, Mr. Williams and Ms. Gary were holding her in the back seat of the car, using her
as a shield. [Ex. P-22 at 84; Dkt. 78-18 at 8]. When she broke free and ran away, she heard Mr.
Williams instructing Ms. Gary to find her and beat her, because he thought she had helped to
orchestrate the incident. [Ex. P-22 at 85-87; Dkt. 78-18 at 8]. Ms. Rowell further testified that

3 The District of Columbia Court of Appeals’ opinion on Petitioner’s appeal of the denial of his first motion under
D.C. Code § 23-110 states that Petitioner “was either halfway outside the car or already outside and leaning back into
the driver’s side of the car[] when he fired three gunshots and fled.” [Dkt. 63-3 at 2].

4

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 5 of 68

Petitioner was the only person in the car that she saw with a gun. [Ex. P-22 at 87; Dkt. 73-1 at
37], The day after the shooting, Petitioner approached Ms. Rowell to ask her to testify on his
behalf should he be arrested and prosecuted. [Ex. P-22 at 86; Dkt. 78-18 at 8-9]. She testified
that Petitioner “gave [her] a story to tell,” although she did not specify what that story was, and
that if she did not tell it, “there would be no problem with doing it again,” which Ms. Rowell
understood meant that she might be killed if she did not comply. [Ex. P-22 at 86]. Approximately
two weeks later, Ms. Gary complied with Mr. Williams’ request, finding and beating Ms. Rowell
for her perceived role in the shooting and because Ms. Rowell would not give a statement to the
police. [Ex. P-22 at 86, 129, 133; Dkt. 63-7 at 15; Dkt. 78-18 at 8].
Mr. Williams stated that once they reached the alley, which was located at 18th Place, NE,
Petitioner instructed Mr. Nash to stop the car and turn off the lights. [Ex. P-22 at 225; Dkt. 78-18
at 10], When Mr. Nash asked why, Petitioner held a gun to his head, said, “This is why,” and
demanded $20. [Ex. P-22 at 225-26; Dkt. 78-18 at 10]. When told that the money had been spent,
Petitioner threatened to kill everyone in the car. [Ex. P-22 at 227; Dkt. 78-18 at 10] .He looked
around the car, musing about whom he should kill first, and then shot Mr. Nash in the head. [Ex.
P-22 at 227; Dkt. 78-18 at 10], Petitioner then aimed the gun at the back seat passengers, and
when Mr. Williams tried to grab it from him, struck Mr. Williams in the hand with the gun. [Ex.
P-22 at 228; Dkt. 78-18 at 10]. As Petitioner fled, Mr. Williams saw and retrieved a gun from Mr.
Nash’s hand and shot at Petitioner as he ran from the scene. [Ex. P-22 at 234; Dkt. 63-7 at 14;
Dkt. 78-18 at 10]. Mr. Williams then took Mr. Nash’s gun home and called 911. [Ex. P-22 at
235-36, 238; Dkt. 63-7 at 14; Dkt. 78-18 at 10], Mr. Williams admitted on cross-examination that
he did not tell police about Mr. Nash’s gun, nor did he tell them that he had fired a gun. [Ex. P-22
at 263-64; Dkt. 63-7 at 14; Dkt. 78-18 at 11],

5

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 6 of 68

According to Ms. Gary, Petitioner shot Mr. Nash twice and wounded Ms. Nash with a third
shot. [Ex. P-22 at 303-04; Dkt. 63-7 at 16]. When the shots were fired, Mr. Williams reached
over Ms. Rowell, pushed Ms. Gray down, and grabbed for Petitioner’s hand. [Ex. P-22 at 304;
Dkt. 63-7 at 16]. Petitioner struggled with Mr. Williams, then exited the car and ran down the
alley. Id. Ms. Rowell followed, shouting after him. [Ex. P-22 at 304; Dkt. 63-7 at 16], Ms. Gary
admitted to having a pistol that night, which she discarded before the police arrived at the scene.
[Ex. P-22 at 305-06; Dkt. 63-7 at 16; Dkt. 78-18 at 11], She also testified that she was a police
informant. [Ex. P-22 at 306-07; Dkt. 78-18 at 11]. Ms. Gary admitted that she later beat Ms.
Rowell because she believed Ms. Rowell had set up the attempted robbery by getting Mr. Nash to
give Petitioner a ride. [Ex. P-22 at 308-09; Dkt. 63-7 at 16; Dkt. 73-1 at 20-21; Dkt. 78-18 at 11].
Further, she stated that, two days after the shooting, she surrendered Mr. Nash’s gun, with which
Mr. Williams had shot at Petitioner, to the police. [Ex. P-22 at 310-11; Dkt. 63-7 at 16; Dkt. 731 at 31; Dkt. 78-18 at 11],
Homicide Detective Pamela Reed confirmed at trial that Ms. Gary had long been her paid
informant, and Detective Reed had intervened to get a criminal case against Ms. Gary dropped.
[Ex. P-22 at 360-61, 363; Dkt. 63-7 at 17; Dkt. 78-18 at 12]. It was Detective Reed who took Ms.
Gary’s statement the day after the shooting and who, later that day, recovered the gun from Ms.
Gary. [Ex. P-22 at 364-65; Dkt. 63-7 at 17; Dkt. 78-18 at 12], Detective Reed also testified that
Ms. Gary told her that she was carrying an inoperative pistol the night of the shooting. The
detective later searched, unsuccessfully, for that gun in the area where Ms. Gary had discarded it.
[Ex. P-22 at 366-67, 369-70; Dkt. 63-7 at 17-18]. However, Detective Reed did not include Ms.
Gary’s statement in her report. [Ex. P-22 at 367; Dkt. 63-7 at 18].

6

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 7 of 68

A police evidence technician who searched the crime scene to recover evidence testified
that he recovered a shell casing from the front floorboard of Mr. Nash’s vehicle, and he took
v
custody of a bullet from Mr. Nash’s body. [Ex. P-22 at 379-82; Dkt. 78-18 at 12]. A firearms
examiner with the Metropolitan Police Department, having examined the bullets and the firearms
recovered, opined that neither the bullet in Mr. Nash’s body nor the casing retrieved from the car
had been shot from the weapon turned in by Ms. Gary. [Ex. P-22 at 386-90; Dkt. 63-2 at 6; Dkt.
78-18 at 12],

He further reported that the shell casing was the same brand as some unspent

cartridges found in a bag that was in Ms. Gray’s possession at the time of the shooting. [Ex. P-22
at 394; Dkt. 78-18 at 12-13]. A medical examiner testified the Mr. Nash was killed from a closerange shot that struck the left rear of his neck and exited on the right side of his lower cheek. [Ex.
P-22 at 159-61; Dkt. 63-2 at 6; Dkt. 73-1 at 27; Dkt. 73-3 at 8; Dkt. 78-18 at 9]. Another bullet
struck Mr. Nash near the first wound but did not exit. [Ex. P-22 at 159-61; Dkt. 63-2 at 6; Dkt.
73-3 at 8], Ms. Nash was wounded by a gunshot to the left side of her abdomen. [Ex. P-22 at 3233; Dkt. 63-2 at 9]. All three wounds are consistent with the theory that Mr. and Ms. Nash were
in the front seat of the car when they were shot by a person positioned on the left rear side of the
car. [Ex. P-22 at 178-80],
Petitioner was the sole defense witness. [Dkt. 63-2 at 7; Dkt. 73-3 at 9]. He testified that
he was selling drugs around the time of the shooting, when he was approached by Mr. Williams,
a person to whom he had previously sold drugs. [Ex. P-22 at 415-16; Dkt. 63-3 at 7; Dkt. 73-3 at
9; Dkt. 78-18 at 14], The two entered the hallway of a building, smoked marijuana and PCP, and
discussed the purchase and sale of some cocaine.

[Ex. P-22 at 417; Dkt. 78-18 at 14-15].

According to Petitioner, Mr. Williams stated that he had a drug customer for Petitioner around the
comer. [Ex. P-22 at 417; Dkt. 63-2 at 7; Dkt. 73-3 at 9], Petitioner and Mr. Williams went to Mr. '

7

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 8 of 68

Nash’s car, and Petitioner asked Ms. Rowell to accompany him because he was feeling
uncomfortable about the transaction. [Ex. P-22 at 418-19; Dkt. 63-2 at 7; Dkt. 73-3 at 9; Dkt. 7818 at 15]. Petitioner testified, as did each of the eyewitnesses who testified for the prosecution,
that Mr. Nash was driving and Petitioner sat behind him in the back left seat. [Ex. P-22 at 431;
Dkt. 63-2 at 7-8; Dkt. 73-1 at 27; Dkt. 78-18 at 15]. However, his testimony as to the position of
Ms. Nash and Ms. Gary differed from that presented by the prosecution witnesses. According to
Petitioner, Ms. Rowell sat next to him, Ms. Nash next to her, and Mr. Williams behind Ms. Gary,
who occupied the front passenger seat. [Ex. P-22 at 432; Dkt. 63-2 at 7-8; Dkt. 73-1 at 27; Dkt.
78-18 at 15]. Mr. Williams directed Mr. Nash into the alley. [Ex. P-22 at 420; Dkt. 63-2 at 8; Dkt.
73-3 at 9]. When the car stopped and Mr. Nash turned off the headlights, Mr. Williams pulled a
gun with his right hand, pointed it at Petitioner (who was busy getting the drugs together for the
purported sale), and demanded the drugs and money. [Ex. P-22 at 420; Dkt. 63-2 at 8; Dkt. 73-3
at 9; Dkt. 78-18 at 15]. Petitioner and Mr. Williams struggled over the gun inside the car, with
Petitioner trying to bang the gun out of Mr. Williams hand on the car’s rear window. [Ex. P-22 at
420; Dkt. 63-2 at 8; Dkt. 73-3 at 9; Dkt. 78-18 at 15]. During the struggle, the gun fired several
times. [Ex. P-22 at 420; Dkt. 63-2 at 8; Dkt. 73-3 at 9; Dkt. 78-18 at 15]. Eventually, Petitioner
was able to get free and fled the car, with Mr. Williams shooting after him. [Ex. P-22 at 420-21;
Dkt. 63-2 at 8; Dkt. 73-3 at 10; Dkt. 78-18 at 15-16], Petitioner testified that he was not carrying
a gun and did not know that anyone had been shot. [Ex. P-22 at 419-22; Dkt. 63-2 at 8; Dkt. 733 at 10; Dkt. 78-18 at 15-16].
The prosecution’s theory was that Petitioner attempted a robbery, shot Mr. and Ms. Nash
from the left side of the car—consistent with the forensic evidence about the gunshot wounds—
and then fled with the murder weapon. [Ex. P-24 at 18-29; Dkt. 73-1 at 26-27, 30-31]. Petitioner

8

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 9 of 68

argued self-defense. Specifically, the defense theory was that Mr. Williams, who was sitting on
the right side of the back seat of the car (and thus to the right of both Mr. and Ms. Nash) pulled a
gun on Petitioner while trying to rob him and, in the chaotic situation afterward, in which the
passengers of the car were moving around, the gun was fired and Mr. and Ms. Nash were shot.
[Ex. P-23 at 36-43; Ex. Pl-24 at 45-46; Dkt. 73-3 at 16-17],
On January 19, 1995, a D.C. Superior Court jury found Petitioner guilty of first degree
felony murder while armed, second degree murder while armed, assault with intent to kill while
armed, assault with a deadly weapon, attempt to commit robbery while armed, possession of a
firearm during a crime of violence, and carrying a pistol without a license. [Dkt 63-3 at 2-3]. On
March 15, 1995, Petitioner was sentenced to thirty years to life imprisonment for the first-degree
felony murder while armed offense; fifteen years to life imprisonment for the second-degree
murder offense; fifteen to forty-five years for the assault with intent to kill while armed offense;
one to three years for the assault with a deadly weapon offense; ten to thirty years for the attempt
to commit robbery while armed offense; five to fifteen years for the possession of a firearm during
a crime of violence offense; and one year for the carrying a pistol without a license offense. [Dkt.
63-10 at 3],
B.

The Direct Appeal

On February 12, 1996, Petitioner timely appealed his conviction and sentence to the D.C.
Court of Appeals, retaining his trial counsel, Judge Sullivan, for the direct appeal. On appeal,
Petitioner argued that there was insufficient evidence to justify his guilty verdict and that the trial
court erred in not providing a jury instruction that manslaughter was a lesser included offense of
felony murder. [Dkt. 63-1 at 3-4; Dkt. 78-18 at 21-32], On June 25, 1996, the D.C. Court of
Appeals held that Petitioner’s appeal was without merit but remanded the case for re-sentencing

9

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 10 of 68

because the second degree murder and attempted robbery convictions merged with the felony
murder convictions. [Dkt. 63-1 at 4].
Thereafter, the trial court vacated Petitioner’s second degree murder and attempted robbery
convictions and resentenced Petitioner to a term of incarceration of forty-six years to life. [Dkt.
63 at 3; Dkt. 63-2 at 3], Petitioner then filed a motion to reduce his sentence, which the trial court
denied on October 2, 1996. [Dkt. 63 at 3]. On March 3, 1997, Petitioner filed a petition for writ
of certiorari which was denied by the U.S. Supreme Court. Johnson v. United States, 520 U.S.
1110(1997).
C.

Collateral Review in the D.C. Courts
1.

Petitioner’s Initial Efforts to Collaterally Review His Convictions

On August 19, 1996, the D.C. Court of Appeals issued an Order construing two of
Petitioner’s pro se letters to that court as a motion to recall the appellate court’s mandate affirming
Petitioner’s convictions. [Dkt. 63 at 4]. On April 8,1997, the Court of Appeals denied the motion
to recall the mandate without prejudice to Petitioner’s first filing for relief in the trial court pursuant
to D.C. Code § 23-110(a), which establishes a procedure for collateral review of convictions in the
D.C. Superior Court. [Dkt. 63 at 4], The statute creates exclusive jurisdiction in that court unless
the remedy provided by that section is “inadequate or ineffective.” D.C. Code § 23-110(g).4
Thereafter, Petitioner filed letters with the D.C. Superior Court asserting ineffective
assistance of his trial counsel. [Dkt. 63 at 4]. He alleged that Judge Sullivan’s performance was

4 Specifically, Section 23-110(g) provides:
An application for a writ of habeas corpus on behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section shall not be entertained by the Superior Court or by any
Federal or State court if it appears that the applicant has failed to make a motion for relief under this
section or that the Superior Court has denied him relief, unless it also appears that the remedy by
motion is inadequate or ineffective to test the legality of his detention.

10

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 11 of 68

deficient because he failed to prepare Petitioner to testify at trial, failed to present to the jury with
evidence that Mr. Nash had been convicted of a crime fifteen years before the trial, failed to
impeach Ms. Gary and Ms. Rowell by questioning them about their fight, and failed to raise doubt
as to the source of the shell casing found on the floor of Mr. Nash’s vehicle. [Dkt. 73-1 at 47]. In
March 1998, D.C. Superior Court Judge Russell F. Canan appointed new counsel to represent
Petitioner in his collateral attack on his convictions. [Dkt. 63 at 4]. On October 1,1998, Petitioner
filed a motion for a new trial in the Superior Court under D.C. Code § 23-110. [Dkt. 63-2]. In it,
Petitioner argued that his trial counsel was ineffective because he “failed to prepare him to testify
at the trial, and failed to present, argue, and develop other evidence which would have supported
the defense theory of the case.” Id. at 8. Specifically, he complained that trial counsel failed to
“br[ing] the evidence regarding the placement of [Mr. and Ms. Nash’s] wounds to [his] attention
and pointed out that he would need to reconcile his version of events with this evidence,” which
resulted in his failure to testify more fully as to the positions of the two shooting victims at the
time of the incident, and that trial counsel failed to bring forth evidence of Mr. Nash’s violent past,
of the relationship between Ms. Gary and Mr. Williams, and of the reason for the fight between
Ms. Gary and Ms. Rowell. Id. at 9-11.
Following an evidentiary hearing at which both Petitioner and Judge Sullivan testified, the
Superior Court denied Petitioner’s first Section 23-110 motion from the bench. [Dkt. 63-10 at 5;
Dkt. 73-1 at 38-50]. The D.C. Court of Appeals affirmed the trial court’s ruling on August 17,
2001. [Dkt. 63-3 at 2],
Petitioner subsequently filed a second Section 23-110 motion alleging that the trial court
erred by instructing the jury that if it found Petitioner was the aggressor, it could not find that he
acted in self-defense. [Dkt. 63-10 at 5]. Petitioner later withdrew the motion and the court denied

11

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 12 of 68

it without prejudice. Id. at 6. Petitioner filed a third Section 23-110 motion in late 2005 alleging
that his “trial counsel’s promise during opening statements to call two witnesses to corroborate
[Petitioner’s] version of events induced [him] to plead not guilty rather than enter an Alford plea5
and that counsel’s subsequent failure to call those witnesses constituted ineffective assistance of
counsel.”6 Id. at 7.
Petitioner filed a fourth Section 23-110 motion in early 2006 raising alleged violations of
Brady v. Maryland, 373 U.S. 83 (1963),7 and ineffective assistance of trial counsel, appellate
counsel, and counsel appointed for his first Section 23-110 motion. [Dkt. 73-2]. Specifically,
Petitioner alleged that the prosecution failed to turn over evidence that Mr. Williams was in
possession of a gun on the night of the incident, evidence that Mr. Williams had been arrested for
a similar robbery in July 1994, and evidence of the relationship among Mr. Williams, Ms. Gary,
and Detective Reed. Id. at 13-20. The ineffective assistance claims related again to trial counsel’s
asserted promise and subsequent failure to call two corroborating witnesses. Id. at 30-31.
While his third and fourth Section 23-110 motions were pending, Petitioner discovered that
Judge Sullivan had previously represented Mr. Williams in a criminal trial.
2.

Petitioner’s Collateral Attack Based on His Counsel’s Alleged Conflict of
Interest

According to Petitioner, on February 13, 2007, he reviewed for the first time the
government’s case jacket from a 1985 prosecution of Mr. Williams, and discovered that Judge

5 “

An Alford plea is one where the defendant enters a guilty plea while maintaining his innocence.” Corley v. U.S.
Parole Comm 'n, 709 F. Supp. 2d 1, 3 n.3 (D.D.C. 2009) (citing North Carolina v. Alford, 400 U.S. 25 (1970)).
6 Petitioner’s third Section 23-110 Motion was denied on May 8,2007. [Dkt. 63-6 at 4],
7 ‘

‘Generally speaking, the Supreme Court’s holding in Brady v. Maryland requires the government to disclose, upon
request, material evidence favorable to a criminal defendant, including evidence held by law enforcement officials.”
United States v. Oruche, 484 F.3d 590, 596 (D.C. Cir. 2007).

12

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 13 of 68

Sullivan had represented Mr. Williams in a criminal matter approximately eight years before
beginning his representation of Petitioner. [Dkt. 78 at 8; Dkt. 78-2; Dkt. 78-6 at 2]. At the time
of the prior representation, Mr. Williams had been charged with first degree burglary while armed
and armed robbery. [Dkt. 63-10 at 12-13]. Mr. Williams’ ultimately pleaded guilty to unlawful
entry and second degree theft in 1987.8 [Dkt. 63-10 at 12-13; Dkt. 78 at 8].
Upon discovering his trial counsel’s prior representation of Mr. Williams, Petitioner
pursued claims in both the D.C. Superior Court and the D.C. Court of Appeals to overturn his
conviction based on the alleged conflict of interest. In the Superior Court, Petitioner filed a motion
in April 2007 to amend his fourth Section 23-110 motion based on the alleged conflict of interest
of his trial counsel (the “Trial IAC claim”). [Dkt. 63-10 at 8; Dkt. 78-8 at 11-22]. Specifically,
Petitioner argued that the conflict of interest caused his trial counsel to fail to investigate and
pursue a defense theory that Mr. Williams was the shooter, to impeach Mr. Williams with his prior
convictions for unlawful entry and second degree theft, to introduce evidence of other crimes of
violence committed by Mr. Williams, and to advise Petitioner of his right to note an appeal from
his re-sentencing upon remand. [Dkt. 63-10 at 9-10; Dkt. 78-8 at 11-22],
At approximately the same time, Petitioner filed a complaint against Judge Sullivan with
the District of Columbia Bar regarding that same alleged conflict of interest. [Dkt. 78-19 at 2],
Judge Sullivan responded that he had no recollection of his prior representation of Mr. Williams
at the time of his representation of Petitioner. [Dkt. 78-24 at 2]. Petitioner’s complaint was
dismissed in July 2007 because the Office of Bar Counsel could not “prove that Judge Sullivan

8 There is some confusion in the record about this prosecution, as the submissions sometimes assert that Mr. Williams
was convicted in 1985 and sometimes in 1987. [Dkt. 102 at 49; Dkt. 104 at 14,43]. It appears that Mr. Williams was
arrested on a felony charge of armed robbery in 1985, was indicted in 1986 for armed burglary and armed robbery,
and in 1987 pleaded guilty and was sentenced for two misdemeanors—theft and unlawful entry. [Dkt. 73-6 at 3, 13,
19,21-23],

13

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 14 of 68

was aware of his prior representation or the charges that had been pending against [Mr. Williams]
[Dkt. 78-25 at 2],
The government’s opposition to Petitioner’s Trial IAC claim included an affidavit from
Judge Sullivan. In it, Judge Sullivan again averred that he had not realized when he represented
Petitioner that he had previously represented Williams. [Dkt. 63-9, Ifl] 2-7]. He noted that a
database he maintained of information on his former clients listed Mr. Williams’ last name as
“William,” which is how it was spelled on his bail report. Id., 4. For that reason, a check of the
database would not have revealed the prior representation. Id. According to Judge Sullivan, he
“had no division of loyalty during [Petitioner’s] trial because [he] did not recognize Mr. Williams
as someone whom [he] knew or had ever represented, nor did Mr. Williams ever communicate to
[him] in any manner that [Mr. Williams] recognized [him].” Id. ]j 8.
While his Trial IAC claim was pending in the Superior Court, Petitioner also sought relief
from the D.C. Court of Appeals for the ineffective assistance of his counsel based on his alleged
conflict of interest during Petitioner’s direct appeal (the “Appellate IAC claim”). Petitioner
asserted his Appellate IAC claim for the first time on May 14, 2007, through a second motion to
recall the mandate filed on the 95-CF-364 docket in the Court of Appeals (the “364 Docket”).
[Dkt. 63-7], Therein, Petitioner contended that the alleged conflict of interest caused his counsel
to fail to raise issues on appeal related to alleged Brady violations at trial and ineffective assistance
at trial. Id. at 12-20. Petitioner also requested that the Court of Appeals remand the matter to the
Superior Court for an “emergency evidentiary hearing” to develop the record regarding the alleged
conflict of interest during his direct appeal. Id. at 23.
On June 6, 2007, the Court of Appeals denied Petitioner’s motion to recall the mandate,
without explanation, on the 364 Docket. [Dkt. 78-9]. Petitioner thereafter filed a motion for

14

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 15 of 68

extension of time and appointment of counsel, which the Court of Appeals construed together as
a motion for reconsideration of its June 6,2007 order. [Dkt. 69-3]. On August 30,2007, the Court
of Appeals granted the motion for reconsideration on the 364 Docket and vacated its June 6, 2007
order, holding that
[t]he motion to recall the mandate is denied, but without prejudice to the trial court’s
consideration of the alleged conflict of interest of [Petitioner’s] trial counsel (who
was also appellate counsel) pursuant to a D.C. Code § 23-110 motion.
Id.
3.

Judge Canan ’s Decision on Petitioner’s Fourth Section 23-110 Motion

Without holding an evidentiary hearing, Judge Canan denied Petitioner’s fourth Section
23-110 motion both as a successive motion and on the merits on August 19, 2008. [Dkt. 63-10 at
16-27, 34]. Judge Canan characterized Petitioner’s Trial IAC claim as contending that Judge
Sullivan’s prior representation of Mr. Williams created an actual conflict of interest that precluded
him from “effectively representing [Petitioner] and from protecting the interests of his former
client,” because his “failure to pursue any of [Petitioner’s] suggested strategies was motivated by
a desire to protect the interests [Mr. Williams].” Id. at 24. Judge Canan did not make a finding
about whether Judge Sullivan knew that he had previously represented Mr. Williams,9 but held
that Petitioner had failed to identify “specific instances where his interests had been impaired or
shown any trial strategies that but for the prior representation, trial counsel would have taken.” Id.
at 27. Specifically, he found that Mr. Williams’ prior second-degree theft and unlawful entry
convictions from 1985 were neither “substantially related to the subject matter tried in
[Petitioner’s] case” nor likely to “have had a significant impact on Mr. Williams’ credibility,

9 At one point in his decision, Judge Canan states, “No conflict is alleged because both Magistrate Judge Sullivan and
defendant agree that defendant was not advised of the prior representation of Mr. Williams.” [Dkt. 63-10 at 34], That
statement, however, was made in the context of Judge Canan’s decision not to hold an evidentiary hearing because
the affidavits that Judge Sullivan and Petitioner filed in that action “do not conflict at all.” Id.

15

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 16 of 68

especially in light of the corroborative testimony of other eyewitnesses.” Id. at 25. Further,
because the prior convictions “involved an incident that had nothing in common” with the incident
at issue, “extrinsic evidence of the conviction would not have been admissible because it lacks
probative value.” Id. at 27. Judge Canan also found that Judge Sullivan’s decision not to impeach
Mr. Williams with evidence of prior convictions or to request an impeachment instruction
“reflect[ed] a realistic course” that was likely as effective as Petitioner’s suggested strategy and
was not calculated to protect Mr. Williams’ interests. Id. at 26. Judge Canan noted that the
government had already impeached Mr. Williams with his prior convictions and that an
impeachment instruction was provided during final instructions. Id. at 25-26.
As to the merits of the Brady claims, Judge Canan found that Petitioner had not shown that
the evidence at issue—of the relationship between Ms. Gary and Mr. Williams and between Ms.
Gary and Detective Reed, of the fact that Mr. Williams possessed a gun, and of Mr. Williams’
1994 arrest—“if disclosed prior to trial, would have had a reasonable probability of affecting the
outcome of the trial.” Id. at 31. “Indeed, [those] facts were eventually disclosed in open court
during witness testimony and were available for the jury to consider with regard to the credibility
of each witness.” Id. Moreover, Judge Canan found that there was no indication that prior
knowledge of the facts would have changed Petitioner’s trial strategy. Id.
As to Mr. Williams’ 1994 arrest (which may have been admissible at trial to show Mr.
Williams’ potential motivation to curry favor with the prosecution), Judge Canan found that,
because the case was “no papered”10 with no evidence of a deal between the prosecution and Mr.
Williams, any impact would have been “minimal.” Id. at 32. Moreover, he found that the

10 “In the parlance of the Superior Court, when a prosecutor decides not to proceed on a charge on which a person has
been arrested, the charge is said to be ‘no-papered,’ i.e., dismissed.” District of Columbia v. Houston, 842 A.2d 667,
669 n.l (D.C. 2004).

16

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 17 of 68

circumstances of Mr. Williams’ 1994 arrest for robbery and receiving stolen property did not
significantly resemble the offence with which Petitioner was charged, and, if admitted, would have
been “insufficient to establish a reasonable possibility that Mr. Williams was the shooter.” Id. As
to Petitioner’s claim that trial counsel was ineffective for not advising him that he had a right to
appeal his resentencing, the court denied the claim as meritless because none of the claims
Petitioner sought to raise were relevant to the resentencing and thus would not have been allowed.
Id. at 21-22. Judge Canan therefore dismissed the motion in its entirety.11 Id. at 34.
4.

Further Proceedings in the D. C. Superior Court and D. C. Court of
Appeals

On September 3, 2008, Petitioner appealed the Superior Court’s order denying his Trial
IAC claim on the 08-CO-l 180 docket in the D.C. Court of Appeals (the “1180 Docket”). [Dkt.
78-4 at 3]. At nearly the same time, on October 15, 2008, Petitioner filed in the Court of Appeals
a motion to recall the mandate out of time on the 364 Docket raising again his Appellate IAC
claim. [Dkt. 78-3 at3;Dkt. 78-7]. On November 5,2008, the Court of Appeals denied that motion
in a one-line order, reasoning that “the alleged conflict of interest issue is before this court in
Duane Johnson v. United States, No. 08-CO-l 18[0].”12 [Dkt. 78-12].
Four months later, the D.C. Court of Appeals affirmed on the 1180 Docket the Superior
Court’s August 19, 2008 order denying Petitioner’s Trial IAC claim. [Dkt. 63-11 at 2]. In so
doing, the court cited two of its prior opinions which addressed alleged conflicts of interest by trial
counsel. See id. (citing McCrimmon v. United States, 853 A.2d 154, 156 (D.C. 2004), and Veney

11 The court also denied Petitioner’s claim that appointed counsel on his first Section 23-110 motion—not Judge
Sullivan—was ineffective. [Dkt. 69-10 at 14-16].
12 A typographical error in the order misidentified the case number as 08-CO-l 189. [Dkt. 84 at 8 n.4].

17

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 18 of 68

v. United States, 738 A.2d 1185, 1192 (D.C. 1999)). The Court of Appeals’ decision made no
mention of Petitioner’s Appellate IAC claim.
On December 3,2008, Petitioner filed a Motion for Relief from Judgment or Order arguing
that his constitutional rights were violated because he was not present for his August 1996
resentencing and the Clerk of Court did not provide him with a copy of the order resentencing him.
[Dkt. 73-7 at 3]. The D.C. Superior Court denied the motion as procedurally barred (because a
similar claim had been addressed in Judge Canan’s order on the fourth Section 23-110 motion)
and as meritless because the resentencing was purely procedural and therefore did not require
Petitioner’s presence. [Dkt. 73-8 at 9-11].
In December 2009, Petitioner filed a Verified Motion to Correct Illegal Sentence, arguing
that his constitutional rights were violated because he was not present at his sentencing in 1995.
[Dkt. 73-9 at 2], The D.C. Superior Court denied the motion without significant discussion. [Dkt.
63-12 at 2]. The D.C. Court of Appeals affirmed the denial, noting that Petitioner’s claims
regarding his 1995 sentence “appear moot.” [Dkt. 63-13 at 2],
In June 2010, Petitioner filed a Motion to Vacate Conviction and Sentences alleging that
the prosecutor at his criminal trial was not lawfully appointed as an Assistant U.S. Attorney. [Dkt.
73-10 at 4], The D.C. Superior Court denied that motion in an omnibus order of May 2011, stating
that the record “clearly shows that [the prosecutor] was [an] Assistant United States Attorney,”
and that the factual evidence Petitioner had presented “contradicts] his wholly speculative
claims.” [Dkt. 63-14 at 4], The D.C. Court of Appeals affirmed, stating, “[n]othing in the record
indicates that [the prosecutor] was not lawfully appointed to act as a representative of the U.S.
government in the prosecution of criminal offenses.” [Dkt. 63-15 at 5],

18

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 19 of 68

D.

Federal Habeas Petition

On January 29, 2010, Petitioner filed his first petition for habeas corpus relief in this Court,
raising claims of “ineffective assistance of trial counsel, prosecutorial misconduct,
misrepresentations by post-conviction counsel, an illegal sentence imposed by the Superior Court,
fraud upon the court by trial counsel, and suppression of exculpatory and impeachment evidence,”
in addition to ineffective assistance of appellatexounsel for his “failure to consult, failure to make
three specific arguments on appeal, conflict of interest, [] failure to notice an appeal after re­
sentencing,” and failure to assist with a Section 23-110 motion. Johnson v. Stansberry, No. 10cv-178, 2010 WL 358521, at *1 (D.D.C. Jan. 29, 2010). That same day, this Court dismissed the
petition without prejudice. Id. The Court reasoned that, “with the exception of the ineffective
assistance of appellate counsel claim,” the exclusive remedy for such challenges is a Section 23110 motion, unless the petitioner can show that such a motion is ineffective or inadequate. Id.
(“This court does not have jurisdiction to entertain claims that were or could have been presented
to the Superior Court on a § 23-110 motion, unless the petitioner can show that his remedy under
§ 23-110 is ‘ineffective or inadequate to test the legality of his conviction.’” (quoting D.C. Code
§ 23-110(g))). Further, the Court held that the claim related to ineffective assistance of counsel
in relation to Petitioner’s first Section 23-110 motion was barred by the Supreme Court’s ruling
that “defendants lack a constitutional right to effective assistance of counsel in state collateral
proceedings.” Id. (citing Williams v. Martinez, 586 F.3d 995, 1001 (D.C. Cir. 2009)). Finally, the
Court held that Petitioner’s Appellate IAC claim could not proceed because Petitioner had not
“allege[d] either that [he] moved to recall the mandate or that the available remedy was ineffective
to protect his rights under the circumstances.” Id. at *2.

19

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 20 of 68

On May 11, 2011, the Court of Appeals for the D.C. Circuit, on its own motion, reversed
the District Court’s dismissal with respect to Petitioner’s Appellate IAC claim. [Dkt. 22]. The
D.C. Circuit found that all claims not related to appellate counsel’s performance on direct appeal
were properly dismissed, but remanded the matter to this Court to “address the merits component
of the certificate of appealability question” on the ineffective assistance of appellate counsel claim.
Id. On June 30, 2011, the District Court issued a certificate of appealability on the Court’s
dismissal of Petitioner’s Appellate IAC claim, finding that it could not “conclude without further
development of the record that [Petitioner has not made a substantial showing of the denial of a
constitutional right.” [Dkt. 30 at 2], Upon consideration of the certificate of appealability, the
D.C. Circuit remanded the case on January 2, 2013 to the district court to “consider the merits of
[Petitioner’s] claim of ineffective assistance of appellate counsel on direct appeal.” [Dkt. 41 at 1].
Petitioner filed the operative Third Amended Petition in February 2013. [Dkt. 42], The
Petition alleges that Judge Sullivan was ineffective in his representation on appeal, identifying 32
alleged errors, including failure to raise appellate arguments regarding flaws at sentencing, Brady
violations, double jeopardy, evidentiary errors, ineffective assistance of trial counsel, and the right
to be represented by conflict-free counsel on appeal.13 [Dkt. 42 at 9-15; Dkt. 78-14 at 2-16], He
further asserts claims unrelated to appellate counsel’s performance, arguing that he is entitled to
have his conviction and sentence vacated because (1) he was sentenced in absentia, (2) trial counsel
was conflicted, (3) the prosecution committed Brady violations, (4) he was convicted of and
sentenced for multiple counts of murder in a case where only one person died, and (5) the trial
court erred by admitting a photograph of him with a visible police department identification

13 These are sometimes referred to herein as Petitioner’s “sub-claims.”

20

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 21 of 68

number. [Dkt. 42 at 30; Dkt. 78-14 at 16-18]. He further requested an evidentiary hearing. [Dkt.
42 at 30],
Respondent filed a motion to dismiss the Petition as time-barred under the one-year statute
of limitations imposed by the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”),
28 U.S.C. § 2244(d). The Honorable Amy Berman Jackson, United States District Judge, denied
that motion based on Williams v. Martinez, 586 F.3d 995 (D.C. Cir. 2009) (en banc). Johnson v
Wilson, No. CV 10-178 (ABJ), 2013 WL 8179778 (D.D.C. Nov. 1, 2013). In that case, the D.C.
Circuit addressed whether Section 23-110(g), which “divests jurisdiction to hear habeas petitions
from federal courts by prisoners who could have raised viable claims pursuant to section 23110(a),” bars a federal court from hearing claims of ineffective assistance of appellate counsel,
which, under the law of the District of Columbia, cannot be raised in a Section 23-110(a) motion.
Williams, 586 F.3d at 998. It then held that, “because the Superior Court lacks authority to
entertain” such a motion, Section 23-110 “is, by definition, inadequate” to test the merits of such
a claim, and therefore does not preclude a petitioner from bringing an ineffective assistance of
counsel claim pursuant to 28 U.S.C. § 2254. Id. Accordingly, Judge Jackson held that because
Petitioner here filed his habeas petition approximately one month after Williams announced a rule
allowing a federal court to hear Appellate IAC claims from a D.C. prisoner, that claim (with its
sub-claims) was timely.14 Johnson, 2013 WL 8179778, at *2.

14 In its memorandum filed after the evidentiary hearing, Respondent included a footnote stating that, in Head v.
Wilson, 792 F.3d 102 (D.C. Cir. 2015), the D.C. Circuit held that “nothing in this Circuit’s pre-Williams jurisprudence
prevented [the petitioner] from pursuing his ineffective assistance of appellate counsel claim in a timely federal habeas
petition, thus removing the Martinez date as the start of the limitations period.” [Dkt. 108 at 9 n.5]. At oral argument
after the evidentiary hearing, Respondent conceded that it is not arguing that the Petition is time-barred. [Dkt. 114 at
50], The concession is well-taken, as even if Respondent had not explicitly waived this argument at that hearing, it
would nevertheless have been deemed waived. First, it is raised in a footnote without meaningful argument. See, e.g.,
Animal Welfare Inst. v. FeldEntm’t, Inc., 944 F. Supp. 2d 1,23 (D.D.C. 2013) (“This Court ‘need not consider cursory
arguments made only in a footnote’ . . . .” (quoting Hutchins v. District of Columbia, 188 F.3d 531, 539 n.3
(D.C. Cir. 1999) (en banc))). Second, the teaching of Head is that Williams did not change the law at all; an Appellate
IAC claim could always have been brought in federal court because Section 23-110(g), by its terms, did not divest

21

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 22 of 68

In February 2014, counsel appeared on Petitioner’s behalf. Thereafter, this matter was
referred to the undersigned for a Report and Recommendation.
E.

Evidentiary Hearing

In response to Petitioner’s request for an evidentiary hearing to develop the record on his
Appellate IAC claim, the undersigned found that the D.C. Court of Appeals neither adjudicated
that claim on the merits nor dismissed it on procedural grounds. [Dkt. 84 at 11]. In light of the
fact that there was not a sufficient factual record to enable de novo review and adjudication of that
claim, an evidentiary hearing was held on July 20, 2017. [Dkt. 84 at 11, 19; Dkt. 102; Dkt. 103].
At the hearing, Judge Sullivan testified that, at the time that he represented Petitioner, he
had been practicing in the D.C. Superior Court for approximately fifteen years, and had handled
“a couple of thousand” criminal cases during that time. [Dkt. 102 at 9-10]. He represented
criminal defendants at approximately thirty trials per year, including homicide trials, and argued
ten to fifteen criminal appeals per year. Id. at 11-12. He also kept abreast of developments in
criminal law and procedure through continuing legal education. Id. at 13-14. He recalled
Petitioner from reviewing certain documents provided by counsel for Respondent pertaining to the
facts of the case and its aftermath, and because Petitioner had sued him “on many occasions.” Id.
at 16-18. He did not search for documents about the case in response to Petitioner’s document
requests in this action because everything in his possession had already been provided to Petitioner
“years ago,” most likely when Petitioner filed his first Section 23-110 motion (which was in late
1998). Id. at 19-20,90-91. Judge Sullivan described that he kept case-related paper files in boxes,

federal courts of jurisdiction over those claims. Head, 792 F.3d at 108-09. But, when Petitioner argued in his
opposition to Respondent’s motion to dismiss that Williams rendered his Petition timely [Dkt 56 at 3-5], Respondent
failed to argue that the case did not, in fact support that argument. Indeed, Respondent declined to file any reply to
Petitioner’s opposition. Thus, Respondent has waived any argument the Petition is time-barred even after Williams.

22

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 23 of 68

/
and maintained a database including the client’s name, case number, charges, and resolution, as
well as the box number if the box was in storage. Id. at 22-23, 67. Generally, if he did not send
a case file to the client, he kept it in his possession for five years after the case was closed and the
sentence served. Id. at 29-31. In any case, he did not engage in further investigation or review of
materials in preparation for the evidentiary hearing. Id. at 19, 23, 41.
In preparation for Petitioner’s 1994 trial, Judge Sullivan visited the crime scene, spoke with
his client about potential witnesses, reviewed the charging document for the eyewitnesses’ names,
and used an investigator (possibly one Sherman Hogue) to check into the witnesses, including Mr.
Williams, and their backgrounds. [Dkt. 102 at 39-43, 75; Dkt 103 at 20]. He did not, however,
interview Mr. Williams. [Dkt. 102 at 53]. Nor did he run a conflicts check to see whether he had
previously represented Mr. Williams or any of the other eyewitnesses. [Dkt. 102 at 49-50; Dkt.
103 at 8-9]. Instead, his practice was to rely on his memory, and “[Recognizing them”—that is,
former clients—“or them recognizing [him].” [Dkt. 103 at 9]. Although he had represented Mr.
Williams for a period of approximately one year in 1985-86, Judge Sullivan testified that he did
not recognize Mr. Williams before or during Petitioner’s 1995 trial or during his appeal and did
not, therefore, inform Petitioner of a potential conflict of interest. [Dkt. 102 at 68-69, 76; Dkt.
103 at 17].
Regarding Petitioner’s direct appeal, Judge Sullivan did not perform any additional
investigation, but only reviewed the trial transcripts. [Dkt. 102 at 99-102]. He did not perform a
separate analysis regarding whether Petitioner’s representation at trial was adequate, because he
“was trial counsel” and “knew what [he] did.” Id. at 103. He also testified that he was “sure” that
he communicated with Petitioner and consulted with him about the arguments on appeal. [Dkt.
103 at 6-7]. Petitioner’s opening brief on appeal primarily argued that there was insufficient

23

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 24 of 68

evidence to sustain the verdict because Judge Sullivan “[didn’t] think there was anything else.
There [weren’t] a lot of objections to evidence or anything like that.” Id. at 7-8. Judge Sullivan
decided against filing a reply brief because “there was no reason to. . . . [I]t would have been
frivolous.” Id. at 22
Judge Sullivan stated that Petitioner’s 2007 complaint to the D.C. Bar first alerted him to
his prior representation of Mr. Williams. Id. at 17. In order to respond to that complaint, he looked
at his database, which apparently contained a misspelling of Mr. Williams’ last name as “William.”
[Dkt. 102 at 22, 38, 66]. He also may have reviewed Mr. Williams’ trial testimony in connection
with both his response to that complaint and with the affidavit he provided in response to
Petitioner’s Trial IAC claim raised as part of his fourth Section 23-110 Motion. Id. at 38.
Investigator Brendan Andrew Wells also testified at the evidentiary hearing. Mr. Wells
worked as a Criminal Justice Act investigator in the D.C. Superior Court from 1987 until 1996, at
which point he became an investigator with the D.C. Public Defender Service, where he worked
until 2014. [Dkt. 103 at 40-41]. He testified as to the investigative tools he used around the time
of Petitioner’s trial in 1994. According to Mr. Wells, he would typically develop a list of known
witnesses, and then utilize a database at D.C. Superior Court known as “CIS.” Id. at 46-48. When
a name was entered (along with other identifying information, like a police department
identification number, if available), the database would provide a list of all of the cases in which
an individual was a defendant. Id. at 49, 51, 54. Each case name allowed the user to link to the
case summary, which would include information such as the charges from the case and the
individual’s attorney. Id. at 51. The investigator would then fill out a form in order to access the
hard-copy case file. Id. at 55. A clerk would provide the case file, as long as it was still housed at
the D.C. Superior Court, which kept files for approximately five years. Id. at 55-56. The case file

24

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 25 of 68

would include such things as the docket sheet, attorneys’ notices of appearance, the charging
document, and a narrative of the alleged crime. Id. at 57. Mr. Wells would also investigate the
crime scene and attempt to interview the witnesses. Id. at 47, 60. Mr. Wells asserted that he had
seen Sherman Hogue using CIS and pulling case files at D.C. Superior Court. Id. at 63.
When Petitioner testified, he recalled that he had met with Judge Sullivan’s investigator,
Sherman Hogue, several times while he was represented by Judge Sullivan. Id. at 84. He testified
that after he was convicted, although he tried to contact his attorney by phone and by letter, neither
Judge Sullivan nor anyone from his firm contacted the Petitioner during the pendency of his appeal.
Id. at 79-81. He was not advised that he could appeal based on ineffective assistance of trial
counsel or that, if he did so, he should consider getting a different attorney. Id. at 82. Indeed,
Petitioner stated that he learned that an appeal had been filed only when he received the opinion
from the D.C. Court of Appeals affirming his conviction and remanding for resentencing. Id. at
82.
Petitioner testified that he learned of Judge Sullivan’s representation of Mr. Williams in
February 2007, when an inmate whom Petitioner had helped with some legal work asked his
counsel to perform a background check on Mr. Williams. Id. at 86. When Petitioner received the
infonnation about Mr. Williams’ former convictions, he requested the case jackets, upon
examination of which he learned of the prior representation. Id. at 87-88. He then raised the
potential conflict of interest with the D.C. Superior Court (in his fourth Section 23-110 motion)
and the D.C. Court of Appeals. Id. at 89.

25

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 26 of 68

II.
A.

LEGAL STANDARDS

AEDPA

AEDPA authorizes federal courts to entertain a habeas corpus petition from a prisoner in
state custody “on the ground that he is in custody in violation of the Constitution or law or treaties
of the United States.” 28 U.S.C. § 2254(a). If a state court has adjudicated a particular claim on
the merits, habeas relief may be granted only where the state court’s adjudication
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
A state court's decision is “contrary” to clearly established federal law when the state court
“applies a rule that contradicts the governing law set forth” in a Supreme Court opinion, or when
it “confronts a set of facts that are materially indistinguishable from a decision of [the Supreme]
Court and nevertheless arrives at a result different from [Supreme Court] precedent.” Williams v.
Taylor, 529 U.S. 362, 405-06 (2000). A decision is an unreasonable application of clearly
established law when “the state court correctly identifies the governing legal principle . . . but
unreasonably applies it to the facts of the particular case.” Bell v. Cone, 535 U.S. 685, 694 (2002).
Habeas relief should be granted on this prong only where there is “no possibility fairminded jurists
could disagree that the state court's decision conflicts with [the Supreme] Court’s precedents.”
Harrington v. Richter, 562 U.S. 86, 102 (2011). When reviewing a habeas petition that a state
court adjudicated on the merits, the federal court is similarly deferential to the state court’s factual
determinations, which are presumed correct and are rebutted only upon presentation of clear and
convincing evidence to the contrary. 28 U.S.C. § 2254(e)(1).
26

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 27 of 68

However, this highly deferential standard is employed only when the state court has in fact
adjudicated the merits of a petitioner’s habeas claim—that is, the state court has issued a judgment
upon “hear[ing] and evaluating] the evidence and the parties’ substantive arguments.” See
Johnson v. Williams, 568 U.S. 289, 302 (2013) (emphasis omitted) (quoting Black’s Law
Dictionary 1199 (9th ed. 2009)). If the state court has not done so, the federal court’s review of
the habeas petition is de novo, and the principles that ordinarily animate AEDPA deference to a
state court’s judgment—comity, finality, and federalism—dissipate. See Winston v. Kelly, 592
F.3d 535, 555 (4th Cir. 2010). This Court has previously found that Petitioner’s Appellate IAC
claim was not adjudicated by the local courts, and that review should therefore be non-deferential.
[Dkt. 84 at 1-2]. Still, to obtain habeas relief Petitioner must show by a preponderance of the
evidence that his federal constitutional rights were violated. See, e.g., Mickens v. Taylor, 240 F.3d
348, 361 (4th Cir. 2001), aff’d, 535 U.S. 162 (2002); Gaines v. Kelly, 202 F.3d 598, 601 (2d Cir.
2000); Freund v. Butterworth, 165 F.3d 839, 869 (11th Cir. 1999) (en banc).
B.

Ineffective Assistance of Counsel

To prevail on an ineffective assistance of counsel claim, a court applies the familiar
standard from Strickland v. Washington, 466 U.S. 668 (1984). A petitioner must show (1) that
“counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed . . .
by the Sixth Amendment” and (2) that “the deficient performance prejudiced the defense.” Id. at
687.
Counsel’s performance was deficient if it “fell below an objective standard of
reasonableness.” Id. at 687-88; see also Peete v. United States, 942 F. Supp. 2d 51, 54 (D.D.C.
2013). But, “a court must indulge a strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance”; that is, the petitioner must overcome the

27

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 28 of 68

presumption that, under the circumstances, the challenged action “might be considered sound . . .
strategy.” Strickland, 466 U.S. at 689 (quoting Michel v. Louisiana, 350 U.S. 91,101 (1955)); see
also United States v. Agramonte, 366 F. Supp. 2d 83, 86 (D.D.C. 2005) (“In evaluating counsel’s
performance, the Court begins with a rebuttable presumption that counsel provided effective
assistance because there is a wide range of sound strategy that a constitutionally effective attorney
might choose.”), aff’d, 304 F. App’x 877 (D.C. Cir. 2008). “It is up to the [petitioner] to overcome
this presumption and show that the challenged action was not the result of sound strategy.”
Agramonte, 366 F. Supp. 2d at 86. In a claim charging appellate counsel with failing to raise
certain issues on appeal, the petitioner must demonstrate that the omitted arguments were “clearly
stronger than [the arguments actually] presented.” Id. at 87 (quoting Gray v. Greer, 800 F.2d 644,
646 (7th Cir. 1986)).
To show Strickland's second prong—that the deficient performance prejudiced the
outcome—the petitioner must establish that the “likelihood of a different result [is] substantial, not
just conceivable.”

Harrington, 562 U.S. at 112.

For a challenge to appellate counsel’s

performance, that means the petitioner must establish that “but for his counsel’s unreasonable
failure ... he would have prevailed on his appeal.” Smith v. Robbins, 528 U.S. 259, 285 (2000).
“Failure to make the required showing of either deficient performance or sufficient
prejudice defeats the ineffectiveness claim.” Strickland, 466 U.S. at 700. It is not, however,
necessary for a court to address both prongs of the Strickland test. “If it is easier to dispose of an
ineffectiveness claim on the ground of lack of sufficient prejudice, which we expect will often be
so, that course should be followed.” Smith, 528 U.S. at 286 (quoting Strickland, 466 U.S. at 697);
see also United States v. Palmer, 902 F. Supp. 2d 1,19 (D.D.C. 2012) (“This Court need not decide
whether these failures fell below an ‘objective standard of reasonableness’ because petitioner has

28

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 29 of 68

failed to show ‘a reasonable probability that, but for counsel’s unprofessional errors, the result of
the proceeding would have been different.’” (quoting Strickland, 466 U.S. at 694)). Likewise, if
the more efficient course is to deny the claim based only on a failure to show deficient
performance, that strategy is also acceptable. See, e.g., Agramonte, 366 F. Supp. 2d at 86 (“The
Court need not address the second prong here, as defendant has failed to meet his initial burden
[regarding deficient performance] in this case.”).
C.

Cuyler v. Sullivan

“[T]he Sixth Amendment right to effective assistance of counsel encompasses the right to
representation by an attorney who does not owe conflicting duties” to other participants in a
criminal trial. Cuyler v. Sullivan, 446 U.S. 335, 351 (1980) (Brennan, J., concurring in part and
concurring in the judgment). That is, “[c]onflict of interest claims ... are a ‘specific genre’ of
ineffective assistance of counsel claim.” United States v. Wright, 745 F.3d 1231, 1233 (D.C. Cir.
2014) (quoting United States v. Bruce, 89 F.3d 886, 893 (D.C. Cir. 1996)). “In order to establish
a violation of the Sixth Amendment, a defendant who raised no objection at trial must demonstrate
that an actual conflict of interest adversely affected his lawyer’s performance.” Cuyler, 446 U.S.
at 348 & n.14. However, the petitioner “typically need not demonstrate the second prong of the
Strickland test—that the lawyer’s deficient performance affected the outcome of the case.”
Wright, 745 F.3d at 1233.
An attorney “has an ‘actual conflict’ when he is ‘required to make a choice advancing
[another client’s] interests to the detriment of his client’s interest.’” United States v. Gantt, 140
F.3d 249, 254 (D.C. Cir. 1998) (quoting Bruce, 89 F.3d at 893). Therefore, “[i]f an attorney’s .. .
representation of conflicting interests was unknowing, it does not give rise to a claim.” United
States v. McGill, 815 F.3d 846, 943 (D.C. Cir. 2016), cert, denied sub nom. Oliver v. United States,

29

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 30 of 68

138 S. Ct. 57 (2017), and cert, denied sub nom. Seegers v. United States, 138 S. Ct. 58 (2017), and
cert, denied sub nom. Alfred v. United States, 138 S. Ct. 58 (2017); see also United States v.
Berkeley, 567 F.3d 703, 709 (D.C. Cir. 2009) (“[BJecause an unknown conflict could not have
‘adversely affected [the attorney’s] performance,’ the Cuyler standard cannot be met.” (quoting
Cuyler, 446 U.S. at 348)); Gantt, 140 F.3d at 254 (where attorney unaware of “any possible
connection” between clients, he “did not face an ‘actual conflict,’ [and] so he did not render
ineffective assistance on that ground”).
The D.C. Circuit “has . . . not decided whether the Cuyler . . . standard applies to cases
involving successive representation.” Wright, 745 F.3d at 1233; see also Mickens v. Taylor, 535
U.S. 162, 176 (2002) (“Whether [Cuyler] should be extended to . . . cases [of successive
representation] remains, as far as the jurisprudence of this Court is concerned, an open question.”).
However, another court in this District has stated that “[deficient performance resulting from an
‘actual conflict’ exists where a defense attorney previously represented a witness for the
prosecution and as a result cannot cross-examine that witness aggressively or must guard against
the disclosure of confidential information during the cross-examination.” Sams v. United States,
No. CR 95-012 (RMU), 1999 WL 680008, at *2 (D.D.C. July 29, 1999); cf. Nix v. Whiteside, 475
U.S. 157, 188 n.7 (1986) (Blackmun, J., concurring in the judgment) (“[A]n attorney who has
previously represented one of the State’s witnesses has a continuing obligation to that former client
not to reveal confidential information received during the course of the prior representation. That
continuing duty could conflict with his obligation to his present client, the defendant, to crossexamine the State’s witnesses zealously.”). Here, because Petitioner has not established that there
was a conflict of interest in the first instance, it is unnecessary to determine whether Cuyler should
apply to allegations of successive representation.

30

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 31 of 68

III.
A.

DISCUSSION

AEDPA Deference

The peculiar procedural posture of this Petition raises a somewhat complex question of
AEDPA deference. As noted above, a federal court addressing an exhausted habeas claim must
generally defer to a state court’s legal conclusions and findings of fact. 28 U.S.C. § 2254(d). Here,
no D.C. court has passed on Petitioner’s ineffective assistance of appellate counsel claims;
however, most of the issues underlying the ineffective assistance claims presented here have been
adjudicated by D.C. courts within the context of Petitioner’s challenges to the effectiveness of his
counsel at trial. The parties disagree on whether the D.C. courts’ legal conclusions on these
underlying issues are entitled to deference.15
Petitioner cites Ceasor v. Ocweija, 655 F. App’x 263 (6th Cir. 2016), an unpublished
decision from the Sixth Circuit, to argue that no deference is due to the reasoning of the D.C. courts
because they have not adjudicated the specific Appellate IAC claim at issue. In that case, like this
one, the state courts had adjudicated the petitioner’s ineffective assistance of trial counsel claims,
but overlooked his ineffective assistance of appellate counsel claims. Id. at 277. Although the
respondent argued that the ineffective assistance of appellate counsel claims were “connected,
overlapping, and derivative” of the ineffective assistance of trial counsel claims, the court held that
it would review those claims de novo because the claims had not actually been adjudicated. Id. at
277 & n.ll. That is, while recognizing that “the adjudication of an ineffective assistance of
appellate counsel claim invariably requires ... evaluation] of the underlying ineffective assistance
of trial counsel claim,” id. at 277 n.l 1, the court did not defer to the state court’s legal conclusions

15 The parties appear to agree that the factual findings of the D.C. Courts are entitled to deference [Dkt. 112 at 3-4 &
n.2], and, indeed, 28 U.S.C. 2254(e)(1) appears to mandate this, stating that “determination of a factual issue made by
a State court shall be presumed to be correct.”

31

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 32 of 68

on the trial counsel claims in deciding the appellate counsel claims, see id. at 282-86. There is
some support for this position in the Supreme Court’s Harrington decision which (in a different
context)16 notes that “§ 2254(d) applies when a ‘claim,’ not a component of one, has been
adjudicated.” 562 U.S. at 98.
However, as the Fourth Circuit recognized in Winston, “[t]he requirement that § 2254(d)
be applied ... to claims ‘adjudicated on the merits’ exists because comity, finality, and federalism
counsel deference to the judgments of state courts when they are made on a complete record.” 592
F.3d at 555. While those concerns dissipate when a state court does not adjudicate a claim on the
merits (or does so on an incomplete record), they would still seem relevant to legal determinations
made on underlying issues, even if the specific, ultimate claim presented to a federal habeas court
is not addressed. And, of course, the cases in which the Supreme Court has cautioned lower federal
habeas courts about the deference due to state court decisions are legion—and many are cited by
Respondent. [Dkt. 113 at 3-5]. Thus, as a matter of first principles—that is, respect for comity,
finality, and federalism—deference to the subsidiary legal conclusions of the D.C. Courts would
appear to be appropriate. However, principles of statutory interpretation counsel against such
deference. After all, as Harrington points out, Section 2254(d) pegs deference to legal conclusions
to “claim[s] . . . adjudicated on the merits in State court proceedings.” 28 U.S.C. § 2254(d)(1)
(emphasis added). When Congress wanted to unlink deference from “claims,” it knew how to do
so: for example, Section 2254(e)(l)’s deference applies to any “determination[s]” of “factual
issue[s] made by a State court.” In any case, it is ultimately not necessary to decide this issue here

16 Harrington addresses whether a state court decision denying a multipart claim without setting forth its reasoning is
entitled to deference under 28 U.S.C. § 2254(d)(1). 562 U.S. at 98-99.

32

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 33 of 68

because Petitioner’s claims fail even without deferring to the legal determinations in the D.C.
courts’ various decisions.17
B.

Claims Not Based on Ineffective Assistance of Appellate Counsel (Nos. 3338)18

Petitioner includes in the operative Petition (which is the Third Amended Petition) six
claims that are not based on ineffective assistance of appellate counsel, ranging from allegations
of Brady violations by prosecutors at his trial to assertions of sentencing errors by the trial court.
[Dkt. 42 at 30; Dkt. 78-14 at 16-18]. However, in connection with the original petition, the
Honorable Colleen Kollar-Kotelly, United States District Judge, dismissed for lack of jurisdiction
(pursuant to Section 23-110) all of Petitioner’s claims that were not grounded in ineffective
assistance of appellate counsel. [Dkt. 3 at 2], The D.C. Circuit affirmed that part of Judge KollarKotelly’s order, stating, “The district court properly dismissed for lack of jurisdiction appellant’s
claims not related to the ineffective assistance of appellant’s counsel. . . .” [Dkt. 22 at 1], To be
sure, in her 2013 decision on Respondent’s motion to dismiss the operative Petition, Judge Jackson
held that Section 23-110 was not adequate to test claims of ineffective assistance of appellate
counsel and so allowed them to proceed, Johnson, 2013 WL 8179778, at *2, but did not address

17 Addressing Judge Canan’s decision on Petitioner’s fourth Section 23-110 motion, Petitioner contends that, if
deference were due to a D.C. court opinion, it would be to the “last reasoned opinion issued by a state court,” that is,
the D.C. Court of Appeals decision affirming Judge Canan’s opinion. [Dkt. 112 at 5]. Petitioner is mistaken. The
D.C. Court of Appeals decision summarily affirmed Judge Canan’s order without explaining its reasoning. [Dkt. 6311]. “[W]hen a state appellate court summarily affirms a reasoned lower-court decision,... a federal habeas court is
to ‘look through’ the unexplained affirmance to examine the ‘last reasoned decision’ on the claim, assuming that the
summary appellate decision rests on the same ground.” Hester v. Ballard, 679 F. App’x 273, 278 (4th Cir.) (second
alteration in original) (quoting Grueninger v. Dir., Va. Dep’t of Corr., 813 F.3d 517, 525-26 (4th Cir. 2016)), cert,
denied, 138 S. Ct. 124 (2017). Moreover, to the extent that deference were required, it would apply to “the last
reasoned [D.C.] court opinion addressing each claim.'” Thomas v. Clements, 789 F.3d 760, 766 (7th Cir. 2015)
(emphasis added) (quoting Ruhl v. Hardy, 743 F.3d 1083, 1091 (7th Cir. 2014)).
18 In connection with these proceedings, counsel for Petitioner produced a chart outlining and numbering the claims
included in the Petition, from 1 to 38. [Dkt. 78-14], In the following discussion, the numbers assigned to each of the
claims are cited for reference. Some of the claims argued by Petitioner’s counsel fall within the penumbra of the
explicit claims raised in the Petition, however, and so are not identified with a claim number.

33

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 34 of 68

the other claims included in the Petition. To the extent that those claims are still before the Court
(even in light of the opinions of Judge Kollar-Kotelly, Judge Jackson, and the D.C. Circuit) they
should now be dismissed.
“For prisoners of the District of Columbia,... habeas relief is especially hard to come by,”
because Section 23-110 divests federal courts of jurisdiction over both claims that could have been
brought under that section but were not, as well as claims that were brought under that section but
were denied. Gorbey v. United States, 55 F. Supp. 3d 98, 102 (D.D.C. 2014). Here, Petitioner’s
claims that (1) the trial court erred by sentencing him in absentia, (2) trial counsel labored under a
conflict of interest, and (3) the government withheld Brady material (Nos. 33-35), were raised and
denied by the D.C. courts. [Dkt. 63-10 at 16-21, 28-32; Dkt. 78-14 at 16-17; Dkt. 78-38 at 2],
Accordingly, they should be dismissed. Simlilarly, Claim number 38, that the trial court erred by
allowing into evidence a photo of Petitioner with a Police Department Identification number [Dkt.
42 at 30], is barred because it could have been but was not raised in a Section 23-110 motion.
[Dkt. 78-14 at 18]. And the two claims relating to the sentence he received—that he should be
resentenced because “he was sentenced for multiple counts of murder although only one person
died” and because “the jury convicted [him] of first-degree felony murder and the lesser included
offense of second-degree murder for a single murder” (Nos. 36-37)19—should be dismissed
because his second-degree murder conviction was vacated in 1996 after remand from the D.C.
Court of Appeals. [Dkt. 63 at 3].

19 These claims apparently were raised in a Section 23-110 motion, but were not adjudicated by a District of Columbia
local court. [Dkt. 78-14 at 17-18],

34

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 35 of 68

C.

Claims Related to Conflict of Interest of Appellate Counsel (Nos. 4-5,14)

The primary focus of Petitioner’s habeas petition is his claim that Judge Sullivan labored
under an actual conflict of interest on appeal that adversely affected his performance because he
represented prosecution witness Mr. Williams in 1985.20 Recognizing that Judge Sullivan has
repeatedly asserted that he had no recollection of his prior representation of Mr. Williams,
Petitioner contends that his former attorney is not to be believed—on this or on most other issues
material to the Petition. Specifically, Petitioner argues that the “inconsistent and often implausible
explanations that Judge Sullivan has offered [primarily concerning his failure to remember the
prior representation] cast serious doubt on his credibility as a witness” and that his “improper
disposal of Petitioner’s files” in light of reasonably foreseeable litigation “justifies an adverse
inference in favor of Plaintiff s claims.” [Dkt. 104 at 19, 22].
1.

Credibility Finding

Petitioner’s overarching argument regarding Judge Sullivan’s credibility is that he has
made too many inconsistent statements and offered too many unconvincing explanations to credit
his testimony. [Dkt. 104 at 19], “The task of resolving‘discrepancies among the various accounts’
offered into evidence is ‘quintessentially’ a matter” for the fact-finder. Al-Madhwani v. Obama,
642 F.3d 1071, 1076 (D.C. Cir. 2011) (quoting Joy v. Bell Helicopter Textron, Inc., 999 F.2d 549,
561 (D.C. Cir. 1993)). A credibility determination takes into account a witness’ demeanor and
“apprehends the over-all evaluation of testimony in the light of its rationality or internal
consistency and the manner in which it hangs together with other evidence.” United States v.

20 The enumerated claims in the Petition argue that Judge Sullivan was ineffective for failing to argue on appeal that
the trial court erred by appointing conflicted trial counsel (No. 4), that “new conflict-free counsel should have been
appointed” on appeal (No. 5), and that he was deficient for failing to inform the trial court that he had previously
represented Mr. Williams (No. 14). [Dkt. 42 at 10,12; Dkt. 78-14 at 3, 8].

35

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 36 of 68

McCoy, 242 F.3d 399, 408 n.15 (D.C. Cir. 2001) (quoting Carbo v. United States, 314 F.2d 718,
749 (9th Cir. 1963)).
The undersigned finds that Judge Sullivan’s testimony at the evidentiary hearing was
credible. His demeanor was open and his answers were candid and non-evasive. Indeed, he
answered all of the questions presented to him, even when those answers revealed some awkward
admissions. His responses on the key issue—that he was unaware of his prior representation of
Mr. Williams—were direct and forthright at the hearing, and have been consistent over time.
Moreover, his failure to recall his representation of Mr. Williams is both plausible and reasonable,
given the hundreds of criminal cases that Judge Sullivan handled in the approximately eight years
between the end of his representation of Mr. Williams and the beginning of his representation of
Petitioner.21 [Dkt. 63-10 at 25; Dkt. 102 at 10].
Petitioner’s arguments to the contrary are not convincing. Indeed, his catalog of putative
inconsistencies overreaches. Petitioner claims that Judge Sullivan’s testimony that he did not have
a process in place to check for conflicts and simply relied on his memory “contradicts his prior
sworn statements” in his submissions in response to both Petitioner’s D.C. Bar complaint and the
fourth Section 23-110 motion that the misspelling in his database caused his mistake. [Dkt 104 at
20; Dkt. 109 at 8], Specifically, he asserts that
Judge Sullivan has previously claimed to the D.C. courts and to Bar Counsel that
he never discovered his prior representation of Victor Williams because Williams’
name was misspelled in the database that Judge Sullivan used for conflicts checks.
At the evidentiary hearing, Judge Sullivan backtracked and offered a completely
new explanation, testifying instead that, as a rule, he never ran conflicts checks.22
21 It should be noted that Mr. Williams apparently did not recognize Judge Sullivan, either.
22 Upon a cursory scan, the undersigned similarly construed Judge Sullivan’s prior statements as indicating that he
had checked his database as part of a conflicts check process and failed to find Mr. Williams’ name because of the
typographical error. [Dkt. 84 at 6; Dkt. 114 at 6—7]. However, after closer scrutiny, the Court admitted at the
continuation of the evidentiary hearing in January 2018 that such interpretation was an “overread[ing].” [Dkt. 114 at
7]-

36

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 37 of 68

[Dkt. 104 at 20], But a closer look at the actual statements at issue undermines this contention. In
response to the D.C. Bar complaint, Judge Sullivan stated:
Ten years prior to [representing Petitioner],231 represented a man named Victor J.
William (this is the spelling in my database).... Mr. William(s) was charged with
first-degree burglary, which was ultimately recharged as unlawful entry and petty
theft, to which Mr. William(s) entered guilty pleas. I don’t recall what, if any, part
Victor J. Williams (as identified by [Petitioner]) played in the trial. . . . The only
information I had available to me with regard to Victor J. William(s) and [his]
Superior Court [c]ase . . . was as stated above because my file with regard to Mr.
William(s) had already been discarded prior to [Petitioner’s] trial. My present
recollection is that if I had represented a witness who testified in [Petitioner’s] trial,
I did not know it at the time, because had I known it, it would have been discussed
on the record.
[Dkt. 78-24 at 2], In response to Petitioner’s fourth Section 23-110 motion, Judge Sullivan stated:
After [Petitioner’s] conviction, and after it was alleged that I had represented
government witness “Victor Williams” I reviewed by existing records and saw that
my records were under the name “Victor William” without the “s” which is how
his name was listed on the bail report which is why I believe I had his name listed
as “William” and not “Williams” in my database.

By the time I represented [Petitioner], the only information I had available to me
with regard to Victor J. William(s) and [his] Superior [c]ase . . . was that I had
represented a Victor J. William . . . , that he had been charged with first-degree
burglary and that he had pled guilty to unlawful entry and petty theft because by
the time I represented [Petitioner], my file with regard to Mr. Williams(s) had
already been discarded ([it] is my practice to keep files five years after the case
becomes completely closed (all sentences have been served etc.)[).]
... If I had represented a witness who testified in [Petitioner’s] trial, I did not know
it at the time, because if I had known it, I would have disclosed it to the Court and
to government counsel on the record.

23 It may have been ten years from when Judge Sullivan’s representation of Mr. Williams began until the time his
representation of Petitioner began; however, the record indicates it was approximately eight years between the time
when Judge Sullivan’s representation of Mr. Williams ended and his representation of Petitioner began. [Dkt. 63-10
at 25; Dkt. 102 at 10],

37

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 38 of 68

[Dkt. 63-9, Ifif 4, 6-7]. Neither of those statements indicate that the misspelling in the database
caused Judge Sullivan to overlook the fact that he had represented Mr. Williams in the mid-1980s.
Indeed, at the evidentiary hearing, he—quite candidly—confirmed that:
[I]t was spelled wrong in my database, but that really had nothing to do with it. I
just didn’t recognize him and he didn’t recognize me at the trial. Had that
happened, I would have immediately—or had the government—-you know, if the
government told me that one of their witnesses—you represented one of our
witnesses, I would have said, well, what are we going to do?
[Dkt. 102 at 89]. Petitioner states that Judge Sullivan’s testimony that “it was not his practice to
run conflicts checks to ensure that he had never previously represented government witnesses,”
but rather relied on his memory, is “illogical . . . and highly [ethically] questionable.” [Dkt. 104
at 20]. Although it was certainly not best practice, that does not make his testimony incredible.
Petitioner’s other attempts to highlight inconsistencies suffer from similar flaws. For
example, he contends that Judge Sullivan testified both that “he made no attempt to interview the
government’s witnesses prior to Petitioner’s trial or on direct appeal,” and, in contrast, that “he
would have tried to find and interview government witnesses.” [Dkt. 104 at 21 n.12 (emphasis
added)]. But that claim misstates the evidence. Judge Sullivan testified, in the context of a
colloquy about Mr. Williams’ trial testimony, that he hired an investigator and “we went out and,
obviously, tried to find and tried to interview” the witnesses they knew about. [Dkt. 102 at 3940]. He further asserted that he and the investigator “looked to see” if they could find Mr. Williams
and “attempted] to locate” him. [Dkt. 102 at 52], Later, Judge Sullivan was asked, “As a general
matter, when you were preparing an appeal, would you attempt to interview or re-interview
witnesses?” and he replied, “No.” [Dkt. 102 at 102 (emphasis added)]. That is, Judge Sullivan

38

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 39 of 68

never stated that he made no attempt to investigate Mr. Williams prior to the trial; indeed, he said
quite the opposite.24
Petitioner also quibbles with Judge Sullivan’s assertion at one point in the evidentiary
hearing that he kept client files “indefinitely” because it conflicts with his prior declaration, noted
above, that he kept files for “five years after the case becomes completely closed” [Dkt. 63-9, |
6;Dkt. 104 at 21 n.13]. But the essence of Judge Sullivan’s testimony on his document retention
policy actually indicates that he followed the D.C. Bar’s guidelines on file retention, which allowed
files to be discarded, and he did discard files after varying periods of time depending on the case
and the situation. [Dkt. 102 at 27, 92-93]. Specifically, he testified on cross-examination that he
would “throw[] some files away, if [he] hadn’t heard from the [client] in years.” Id. at 93. That
is not materially different than what he averred to Bar Counsel.
Finally, Petitioner suggests that, given the background investigation Judge Sullivan
indicates that he or his investigator performed, which would have included using a Superior Court
database to perform criminal background checks on important government witnesses, they would
have discovered his prior representation of Mr. Williams.

This is both speculative and

oversimplifies the testimony. Judge Sullivan testified that such research was not “routine” but was
carried out if it was necessary. [Dkt. 102 at 44]. As Petitioner’s own witness testified, searching
the database by name would provide a list of cases in which the individuals of that name were
involved. [Dkt. 103 at 51]. That list would not, itself, reveal other information, such as who
represented that person in each of those cases. That could be discovered on a later screen only by

24 In another example of over-reading the testimony, Petitioner intimates that Judge Sullivan testified that he knew of
Mr. Williams’ criminal history more than a week prior to the trial, but also states that he did not investigate that
criminal history other than by reading the government’s so-called Giglio letter sent the day before trial. [Dkt. 104 at
12,21], However, all Judge Sullivan testified was that he did not think Mr. Williams would have agreed to a pre-trial
interview, given that “he had significant ties to the criminal justice system.” [Dkt. 102 at 52]. He did not state that
he knew of those ties “prior to the week of trial” [Dkt. 104 at 21] or that such knowledge affected his attempt to
interview Mr. Williams.

39

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 40 of 68

“clicking” on “F2” to get the case summary, or by requesting the case jacket from a court clerk.
Id. at 54-55. If the case was more than five years old—as was the case here with regard to Judge
Sullivan’s representation of Mr. Williams in 1985—it could take as long as two weeks to get the
case jacket. Id. at 56. The case jacket would include such information as a docket sheet, notices
of appearance, and the charging document. Id. at 57. Thus, it is simply inaccurate to say, based
on the evidence, that a person engaging in the research that might have been performed in
connection with Mr. Williams would likely have discovered that Judge Sullivan had represented
Mr. Williams approximately a decade before he represented Petitioner.
In sum, the undersigned finds that Judge Sullivan’s testimony at the evidentiary hearing
was credible and that Petitioner’s arguments in support of an adverse credibility finding fail.
2.

Adverse Evidentiary Inference

Nor is there justification for an adverse evidentiary inference due to Judge Sullivan’s
purported “improper disposal of petitioner’s files.” [Dkt. 104 at 22]. To be sure, where a party
has intentionally destroyed records relevant to a contested issue in litigation, an inference that
those records would have undermined that party’s position or supported the opposing party’s
claims may be appropriate. See, e.g., Gerlich v. U.S. Dep’t ofJustice, 711 F.3d 161,170-71 (D.C.
Cir. 2013). Generally, to merit imposition of an evidentiary sanction, the proponent must establish:
(1) [T]he party having control over the evidence had an obligation to preserve it
when it was destroyed or altered; (2) the destruction or loss was accompanied by a
“culpable state of mind”; and (3) the evidence that was destroyed or altered was
“relevant” to the claims or defenses of the party that sought the discovery of the
spoliated evidence, to the extent that a reasonable factfinder could conclude that the
lost evidence would have supported the claims or defense of the party that sought
it.

Ashraf-Hassan v. Embassy ofFrance in the United States, 130 F. Supp. 3d 337, 340 (D.D.C. 2015)
(alteration in original) (quoting Mazloum v. District of Columbia Metropolitan Police Dep’t, 530

40

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 41 of 68

F. Supp. 2d 282, 291 (D.D.C. 2008)). Where, as here, the fact-finder is not a jury but a judge, a
court should be particularly “circumspect in [its] drawing of inferences” because “prejudice is less
likely.” Id.
Here, Petitioner fails at the first step. The subject files would have included Petitioner’s
own case file and Mr. Williams’ case file, neither of which Judge Sullivan has in his possession,
custody, or control. In 2007, in response to Petitioner’s D.C. Bar complaint, Judge Sullivan
asserted that he had sent Petitioner’s case file to Petitioner or his attorney “several years ago” in
connection with one of Petitioner’s collateral attacks on his conviction. [Dkt. 78-24 at 2], At the
evidentiary hearing, Judge Sullivan similarly testified that he had sent Petitioner’s case file to
Petitioner or his appointed attorney during the litigation of the first Section 23-110 motion. [Dkt.
102 at 19, 30], Petitioner has provided no countervailing evidence—indeed, at the evidentiary
hearing, he testified merely that he had not seen the briefs filed in his appeal, not that neither he
nor his appointed counsel had received the case file from Judge Sullivan. [Dkt. 103 at 83].
Accordingly, there was no destruction of potentially relevant evidence in connection with
Petitioner’s case file—Judge Sullivan sent it to Petitioner or his agent.
As to Mr. Williams’ file, as Judge Sullivan explained in 2008 in connection with
Petitioner’s fourth Section 23-110 motion, he had discarded it five years after Mr. Williams’ case
was fully closed, and prior to beginning his representation of Petitioner. [Dkt. 63-9, 6], Petitioner
provides neither evidence nor argument as to why this Court should not credit that representation.
In any event, the undersigned finds that there was no pending litigation requiring the Judge
Sullivan to retain those records, and it does not appear that any other source of law obliged him to
preserve those files at the time they were discarded.25 Accordingly, because Petitioner has not

25 Petitioner’s only attempt to identify a legal obligation on Judge Sullivan to retain those files is to cite D.C. Bar Legal
Ethics Opinion 206 (1989). That opinion states that an attorney who has possession of client property, such as

41

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 42 of 68

satisfied even the first step for its imposition, an adverse evidentiary sanction is not appropriate
here.
Petitioner then complains that Judge Sullivan failed even to search for responsive records
in response to discovery requests propounded prior to the evidentiary hearing, and suggests an
adverse evidentiary sanction for that omission. [Dkt. 104 at 23].

However, he identifies no

specific source providing for such a sanction. Rule 6 of the Rules Governing Section 2254 Cases
allows application of the Federal Rules of Civil Procedure to actions pursuant to 28 U.S.C. § 2254.
Rule 37 of the Federal Rules of Civil Procedure permits certain sanctions, including “adverse
findings of fact, considering an issue established for the purpose of the actionf, or] adverse
inferences” when a discovery order has been violated. Nunnally v. District of Columbia, 243 F.
Supp. 3d 55, 73 (D.D.C. 2017) (quoting 3E Mobile, LLC v. Glob. Cellular, Inc., 222 F. Supp. 3d
50, 53 (D.D.C. 2016)); see also Fed. R. Civ. P. 37(b). Here, of course, Judge Sullivan did not
violate a court order, so Rule 37 does not apply. However, an adverse inference can be imposed
pursuant to the court’s inherent power “whenever a preponderance of the evidence establishes that
a party’s misconduct [or that of a witness] has tainted the evidentiary resolution of [an] issue.”
Nunnally, 243 F. Supp. 3d at 73 (quoting Shepherd v. Am. Broad. Cos., 62 F.3d 1469, 1478 (D.C.
Cir. 1995)).

Again, Petitioner fails to make a sufficient showing. As noted, Judge Sullivan

testified that he no longer had case files related to Petitioner or Mr. Williams. Thus, over twenty

“originals of documents provided to the lawyer by the client” should not dispose of that material until the attorney has
made a good faith effort to contact the former client to determine whether he wants the material held, returned, or
destroyed. Other material, such as attorney work product, may be destroyed as long as “there is no legal obligation
or pending litigation for which the documents should be retained and no foreseeable prejudice to the former client”
from its destruction. That is, Ethics Opinion 26 does not mandate a particular period of time for which client records
must be held. Here, there is no indication that Judge Sullivan destroyed property belonging to Mr. Williams, and no
one has argued that five years after a case is closed and sentence is served is an unreasonably short period of time to
retain attorney-created materials. And, indeed, a later Ethics Opinion advised that “a five year retention period
beginning at the termination of representation is generally sufficient to protect the client’s interests [as to client
property other than ‘valuable client property’] with respect to closed files.” D.C. Bar Legal Ethics Opinion 283 (1998).

42

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 43 of 68

years after the events in question, Judge Sullivan had no physical documents to produce in response
to Petitioner’s pre-hearing discovery requests. Judge Sullivan’s database—which may or may not
have been accessible in 2017 when Petitioner propounded his discovery requests [Dkt. 102 at 9899; Dkt. 104-4]—would have yielded little other than the clients’ names, case numbers, charges,
and resolution, all of which were already known by all of the participants. [Dkt. 102 at 22-23,
67]. Petitioner’s intimation that the database contained possible relevant “documents” [Dkt. 109
at 9] has no basis in the evidence. Petitioner has again not shown that an adverse inference in
favor of his claims is appropriate.26
3.

Application of Cuyler

Finding Judge Sullivan’s testimony concerning his failure to recall his representation of
Mr. Williams credible, and no basis on which to draw an adverse inference evidentiary sanction,
Petitioner’s conflict of interest claims under Cuyler must fail. It is Petitioner’s burden to show
that his appellate counsel labored under an actual conflict of interest that adversely affected his
performance. See, e.g., Gantt, 140 F.3d at 254. The sine qua non of such a claim is that the
attorney knew of the conflict during the challenged representation. See, e.g., Berkeley, 567 F.3d
at 709 (“[B]ecause an unknown conflict could not have ‘adversely affected [the attorney’s]
performance,’ the Cuyler standard cannot be met.” (quoting Cuyler, 446 U.S. at 348)). Judge

26 Although it is unnecessary to the resolution of this dispute, it is worth noting that Petitioner fails at the second and
third steps of the analysis, as well. As noted above, Petitioner must establish that any destruction of documents was
accompanied by a culpable state of mind. See Ashraf-Hassan, 130 F. Supp. 3d at 340. The only evidence presented,
however, indicates that Judge Sullivan did not destroy Petitioner’s file, but rather turned it over to Petitioner or his
counsel in connection with the first Section 23-110 Motion in approximately 1998, and that he got rid of Mr. Williams’
file approximately five years after that case was fully closed, that is, in approximately 1992, consistent with his regular
business practice. There is no suggestion as to why Judge Sullivan would have destroyed Mr. Williams’ file with a
culpable state of mind in the early 1990s.
Nor has Petitioner shown that a reasonable factfinder could conclude that Mr. Williams’ case file would have
supported the claims Petitioner advances here. See Ashraf-Hassan, 130 F. Supp. 3d at 340. In light of the evidence
that neither Judge Sullivan nor Mr. Williams in fact recognized each other at trial, it is not clear how the case file,
itself, could support Petitioner’s claims that Judge Sullivan did recognize Mr. Williams. What document, that is, could
have functioned as proof of that?

43

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 44 of 68

Sullivan’s testimony at the evidentiary hearing, as well as other evidence, establishes that he was
unaware until approximately 2007 that he had represented Mr. Williams in a criminal case prior
to representing Petitioner. [Dkt. 63-9, Iflj 4, 8; Dkt. 78-24 at 2; Dkt. 102 at 49-50, 68-69, 76, 99102; Dkt. 103 at 8-9, 17]. Because he was unaware of that prior representation, he did not face an
actual conflict in his representation of Petitioner. See McGill, 815 F.3d at 943; Berkeley, 567 F.3d
at 709; Gantt, 140 F.3d at 254.
The Petition includes three claims that rely for their success on a finding that Judge
Sullivan’s representation of Petitioner was conflicted and that such a conflict adversely affected
that representation. He asserts that on direct appeal Judge Sullivan (1) refrained from “making
argument that the trial court erred for appointing an attorney who had previously represented a
government witness”; (2) refrained from “making argument that new, conflict-free counsel should
have been appointed”; and (3) failed to inform the trial court that he had a conflict of interest.
[Dkt. 42 at 10, 12; Dkt. 78-14 at 3, 8]. These conflict-based claims should therefore be denied.27
D.

Ineffective Assistance of Appellate Counsel

Petitioner also advances ineffective assistance of appellate counsel claims not based on a
conflict of interest. Specifically, he asserts thirty-two alleged errors made by Judge Sullivan

27 Petitioner advances a new Cuyler claim in the briefing that followed the evidentiary hearing: that, even if Judge
Sullivan was unaware of his representation of Mr. Williams until after the appeal was decided, “his interests on appeal
conflicted with Petitioner’s due to Judge Sullivan’s personal interest in avoiding his ineffective trial representation
coming to light.” [Dkt. 104 at 32], The D.C. Circuit has rejected such “attempts to force . . . ineffective assistance
claims into the ‘actual conflict of interest’ framework .. . and thereby supplant the strict Strickland standard with the
far more lenient Cuyler test. United States v. Bruce, 89 F.3d 886, 893 (D.C. Cir. 1996). For example, in United States
v. Farley, the D.C. Circuit rejected a claim that an attorney had an actual conflict of interest where the client asserted
that the attorney had mishandled a plea hearing to avoid revealing that he had engaged in malpractice. 72 F.3d 158,
166 (D.C. Cir. 1995). The D.C. Circuit also cited with approval the decision in United States v. Litchfield, in which
the Tenth Circuit rejected an allegation of “a conflict of interest between a counsel’s duty of loyalty to [his client] and
counsel’s desire to protect his own reputation before the district court” where counsel engaged in an ex parte colloquy
with the court admitting his fear that his client would testify untruthfully. 959 F.2d 1514, 1518 (10th Cir. 1992). In
any case, as discussed below, Petitioner has not identified any appellate arguments that would likely have succeeded,
so this claim must fail.

44

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 45 of 68

during his direct appeal.28 These can be grouped into several (overlapping) categories: claims
relating to appellate counsel’s failure (1) to argue issues regarding Petitioner’s indictment,
conviction, and sentencing for both felony murder and second degree murder; (2) to argue issues
regarding the prosecutor’s appointment as an Assistant U.S. Attorney; (3) to argue issues regarding
alleged Brady violations at trial; (4) to perform post-trial investigation to discover the details of
Mr. Williams’ 1987 conviction on two misdemeanor charges and of his 1994 arrest for robbery
and receiving stolen property; (5) to argue issues regarding two witnesses who were not called at
trial; (6) to argue issues regarding jury instructions; (7) to argue issues regarding Mr. Nash’s prior
conviction; (8) to argue issues regarding the motion for judgment of acquittal at trial; (9) to argue
issues regarding the admission at trial of a photograph of Petitioner; (10) to argue issues regarding
trial counsel’s preparation of Petitioner to testify; (11) to argue issues regarding the crossexamination of Mr. Williams; and (12) to advise Petitioner of his right to raise ineffective
assistance of trial counsel on appeal. He also raises a claim of cumulative error. For the reasons
explained below, none of these claims passes muster under the demanding Strickland standard.
1.

Claims Related to Indictment, Conviction, and Sentencingfor Both Felony
Murder and Second Degree Murder (Nos. 1-2, 9-10, 27-30)

Under this category, Petitioner claims that Judge Sullivan was ineffective during the direct
appeal because he (1) failed to consult with Petitioner about raising a claim on appeal that his
constitutional rights were violated when he was sentenced in absentia in 1995 (No.l); (2) did not

28

Petitioner has presented the majority of these claims in only the sparsest manner, merely listing them in the Petition.
[Dkt. 42 at 10-13]. Indeed, Petitioner’s counsel admitted that they focused their attention on Petitioner’s strongest
arguments, eschewing “most” of the dozens of sub-claims [Dkt. 114 at 53-54]—as, indeed, the Supreme Court has
instructed appellate counsel, like Judge Sullivan, to do, see, e.g. Jones v. Barnes, 463 U.S. 745, 751-52 (1983)
(“Experienced advocates since time beyond memory have emphasized the importance of winnowing out weaker
arguments on appeal and focusing on one central issue if possible, or at most on a few key issues.”). Nonetheless, the
Court addresses each of these claims, if for no other reason than that Petitioner has sought for over a decade for a court
to address the merits of these claims of error, which he says led to his murder conviction.

45

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 46 of 68

raise such claim on appeal (No. 2); (3) did not argue that trial counsel was ineffective for failing
to object to sentencing Petitioner in absentia (No. 27); (4) did not raise the issue that Petitioner’s
sentence violated the Double Jeopardy Clause of the Constitution because he was sentenced for
both felony murder and second degree murder for a single killing (No. 9); (5) did not raise the
issue that trial counsel was ineffective for failing to make that Double Jeopardy objection (No.
29); (6) did not argue that Petitioner’s constitutional rights were violated when he was convicted
of both felony murder and second degree murder (No. 10); (7) did not argue that trial counsel was
deficient for not objecting to the indictment because it charged both felony murder and second
degree murder for a single killing (No. 27); and (8) did not argue that trial counsel was deficient
for failing to ask for an instruction that the jury should consider second degree murder only if it
found that Petitioner was not guilty of felony murder (No. 28). [Dkt. 42 at 10-11, 13; Dkt. 78-14
at 2, 6-7, 14-15],
To succeed on an ineffective assistance of appellate counsel claim, the petitioner must
prove that he was prejudiced by any error that occurred; that is, he must show that, but for counsel’s
errors on appeal, the outcome of the appeal on the relevant issue would have been different. See
Smith, 528 U.S. at 285. Here, Petitioner cannot establish prejudice because, on direct appeal, the
D.C. Circuit remanded to the trial court to vacate Petitioner’s duplicative convictions—which
included his conviction for second-degree murder—and for resentencing in light of that vacatur.
[Dkt. 24 at 3; Dkt. 63 at 3; Dkt. 63-1 at 4], Thus, he received the relief to which he would have
been entitled had he been successful on his Double Jeopardy claims. Similarly, that relief was
sufficient to cure any error regarding the indictment, as a remedy for a multiplicitous indictment
is merger of the multiplicitous counts into a single count. See, e.g.,Ball v. United States, 470 U.S.
856, 864-65 (1985) (where defendant is charged and conviction of duplicitous counts, proper

46

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 47 of 68

remedy is to vacate one conviction); United States v. McCafferty, 482 F. App’x 117, 126 (6th Cir.
2012) (“The Supreme Court has instructed that the proper remedy for multiplicitous counts may
include allowing the jury to consider all counts that are reasonably supported by the evidence and
addressing any multiple-punishment issues at sentencing by merging overlapping convictions.”);
United States v. Platter, 514 F.3d 782, 787 (8th Cir. 2008) (“[T]he proper remedy when a
defendant is convicted of multiplicitous counts is merger of the counts into one count, not a retrial
under just one theory of liability.”); United States v. Dudley, 581 F.2d 1193, 1199 (5th Cir. 1978)
(“Where multiplicitous indictments result in cumulative sentences, the appropriate remedy is to
remand the case for dismissal of one count.”).
Moreover, Petitioner also received the relief to which he would have been entitled had he
been successful on his claims regarding sentencing in absentia. If a defendant’s rights are violated
because he is not present at his sentencing, the proper remedy is a remand for resentencing. See,
e.g., United States v. Lastra, 973 F.2d 952, 955-56 (D.C. Cir. 1992) (remanding for resentencing
where defendant’s constitutional rights were violated because she was not present when
consecutive sentences imposed); United States v. Pinkney, 551 F.2d 1241, 1249 (D.C. Cir. 1976)
(proper course for counsel’s errors in connection with sentencing is holding new sentencing
hearing). Petitioner was resentenced on August 8, 1996.29 [Dkt. 63-2 at 3].
For these reasons, the undersigned recommends denying these claims.

29 The sentencing-in-absentia claim fails for an independent reason. Petitioner has presented no evidence that he was
not present at his 1995 sentencing (the transcript of the sentencing was not provided to the Court). In the past, he
appears to have relied on a form (seemingly some kind of docket entry) from his criminal case in the D.C. Superior
Court dated March 15, 1995—the date of his sentencing—on which the boxes that would indicate the presence of
counsel and the defendant are not checked. [Dkt. 73-9 at 11], However, that form does not indicate that it is related
to Petitioner’s sentencing. Rather it merely amends the entry of January 19, 1995—the date of Petitioner’s
conviction—to correctly identify the counts of which Petitioner was convicted. [Dkt. 73-9 at 10-11]. That is not
sufficient. Additionally, Petitioner raises no argument about his resentencing in the Petition, although he has
previously claimed that neither he nor his counsel was present for that proceeding. [Dkt. 73-7 at 3].

47

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 48 of 68

2.

Claims Related to Prosecutor’s Appointment as Assistant U.S. Attorney
(Nos. 13, 31)

Petitioner contends that appellate counsel should have argued that trial counsel was
deficient for failing to move to dismiss the indictment on the ground that the prosecutor was not
actually an Assistant U.S. Attorney—a claim that the D.C. Superior Court found “palpably
incredible” and “wholly speculative. „30 [Dkt. 42 at 12-13; Dkt. 63-14 at 4],
Petitioner has relied for support of his claim exclusively on the absence of a record of the
prosecutor’s oath of office and the failure of a Freedom of Information Act request to produce any
loyalty oaths. [Dkt. 63-15 at 5; Dkt. 73-10 at 4], However, both the D.C. Superior Court and the
D.C. Court of Appeals found as facts that the oath of office for Assistant U.S. Attorneys is taken
orally, so there would be no written record of that oath, and that any other loyalty oaths would be
protected from disclosure by privacy laws. [Dkt. 63-14 at 4-5; Dkt 63-15 at 5 & n.l 1], Although
those factual findings were not made in connection with Petitioner’s ineffective assistance of
appellate counsel claim,31 they are still entitled to deference under AEDPA unless rebutted by clear
and convincing evidence. See 28 U.S.C. § 2254(e)(1); Winston, 529 F.3d at 557. As Petitioner
has not done so here, the evidentiary basis for his claim—which was tissue-thin to begin with—
collapses. These claims should therefore be denied.

30 Claim No. 13 states that Judge Sullivan was ineffective for not arguing on appeal that he was ineffective at trial for
failing to move to dismiss the indictment based on the fact that the prosecutor was not an Assistant U.S. Attorney.
Claim No. 31 states that Judge Sullivan was ineffective for not arguing that he was ineffective for failing to seek
dismissal of the indictment pursuant to “SCR-Criminal 6(d)(1)” on the same basis.
31 These findings were made in response to Section 23-110 motions filed by Petitioner in 2010 in the D.C. Superior
Court. [Dkt. 63-14 at 1; Dkt. 73 at 5],

48

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 49 of 68

3.

Claims Related to Alleged Brady Violations (Nos. 3, 6-8, 15)32

Petitioner’s five claims related to the prosecution’s obligations under Brady complain that
appellate counsel (1) did not advise Petitioner that he could have a new attorney appointed to
present his claims of Brady violations/ineffective assistance of trial counsel in a Section 23-110
motion (No. 3); (2) did not argue that the government withheld Brady material (No. 6); (3) did not
argue that twelve specific pieces of evidence were withheld in violation of Brady (No. 8); (4) did
not argue that trial counsel was deficient for failing to raise an argument that the government
violated Brady (No. 8); and (5) did not argue in favor of a remand to the trial court for an
evidentiary hearing on withheld Brady material (No. 7). [Dkt. 42 at 10-12; Dkt. 78-14 at 4-6, 8].
To obtain relief for a Brady violation, the claimant must show that “the evidence at issue
is favorable to the accused, either because it is exculpatory, or because it is impeaching; that
evidence is suppressed by the State, either willfully or inadvertently; and prejudice must have
ensued.” Strickler v. Greene, 527 U.S. 263, 281-82 (1999). The prejudice standard for Brady
claims—also known as a “materiality” standard—“is met when ‘the favorable evidence could
reasonably be taken to put the whole case in such a different light as to undermine confidence in
the verdict.’” Banks v. Dretke, 540 U.S. 668, 698-99 (2004) (quoting Kyles v. Whitley, 514 U.S.
419, 435 (1995)). This standard is higher than a finding “that the suppression must have had
‘substantial and injurious effect or influence in determining the jury’s verdict.’” Kyles, 514 U.S.
at 435 (internal quotation marks omitted) (quoting Brecht v. Abramson, 507 U.S. 619, 623 (1993)).
A court should examine “the cumulative effect of all suppressed evidence favorable to the defense,
not on the evidence considered item by item.” Kyles, 514 U.S. at 420.

32 Petitioner refers to “claims under Brady and Giglio” [Dkt. 104 at 41], that is, Giglio v. United States, 405 U.S. 150
(1972). Giglio “clarified] that the rule stated in Brady applies to evidence undermining witness credibility.” Wearry
v. Cain,__U.S.__ ,__, 136 S. Ct. 1002, 1006 (2016). Discussions of Petitioner’s claims under Brady herein should
be read to include any claims under Giglio.

49

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 50 of 68

To show that appellate counsel was ineffective for failing to raise a Brady issue, the
claimant must show that the Brady issue was “clearly stronger than [the arguments actually]
presented” on appeal, Agramonte, 366 F. Supp. 2d at 87 (quoting Smith, 428 U.S. at 288), and also
that the argument would likely have succeeded on appeal, see Smith, 428 U.S. at 285. When the
argument is that appellate counsel was ineffective for failing to argue that trial counsel was
ineffective for failing to raise a Brady issue, the claimant must also show that trial counsel was
ineffective for failing to raise the Brady issue—that is, that trial counsel’s failure was unreasonable
and there was a substantial likelihood that it would have succeeded had it been raised. See, e.g,
Harrington, 562 U.S. at 112 (petitioner must establish that “likelihood of a different result [is]
substantial, not just conceivable”); Peete, 942 F. Supp. 2d at 54 ([Petitioner must demonstrate that
appellate counsel’s failure to pursue an ineffective assistance of trial counsel claim . . . was itself
deficient and prejudicial.”). If any one of these links fails, so does the ineffective assistance of
appellate counsel claim.33 See, e.g, O’Neal v. Woods, No. 10-CV-12836, 2013 WL 5340767, at
*18 (E.D. Mich. Sept. 23, 2013) (“Determining whether Petitioner’s attorney was constitutionally
ineffective for failing to preserve Petitioner’s Brady claim requires the Court to reach the merits
of Petitioner’s Brady claim, because in order to show that counsel was ineffective for failing to
raise a claim, Petitioner must show a reasonable probability that the claim would have succeeded
if it had been raised by counsel.”), aff’dsub nom. O’Neal v. Burt, 582 F. App’x 566 (6th Cir. 2015).
Petitioner fails here because he has not established a Brady violation in the first instance.
Most of the evidence that Petitioner claims was suppressed by the government was available to

33 The prejudice (or materiality) standard articulated in Brady’s progeny mirrors Strickland’s prejudice standard.
Indeed, in United States v. Bagley, 473 U.S. 667 (1985), the Supreme Court imported “the level of prejudice needed
to make out a claim of constitutionally ineffective assistance of counsel” from Strickland to define “the appropriate
standard to judge the materiality of information withheld by the prosecution . ...” Strickler, 527 U.S. at 299 (Souter,
J., concurring in part and dissenting in part). That is, if suppressed information is not material under Brady, its
suppression cannot have caused prejudice under Strickland.

50

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 51 of 68

him because, although it was not provided to Petitioner prior to trial, it was revealed at trial.
Indeed, Judge Canan found that the following allegedly suppressed facts were actually “available
for the jury to consider with regard to the credibility of each witness”: Ms. Nash saw Mr. Williams
with a gun prior to the shooting; Ms. Nash had a gun and ammunition during the shooting; Mr.
Williams removed Ms. Nash’s gun from the scene of the shooting before turning it over to police;
although Mr. Williams testified that he shot Mr. Nash’s gun, when it was turned over to police, it
was inoperative and fully loaded; Ms. Gary disposed of a gun before speaking with police; Ms.
Gary and Mr. Williams were in a romantic relationship; and Ms. Gary had been a paid informant
for Detective Reed. [Dkt. 63-10 at 28-29, 31; Ex. P-22 at 31-32, 44^15, 210, 235-36, 305-06,
365], Other allegedly suppressed facts—that Detective Reed intervened to get a criminal case
against Ms. Gary dismissed and that Ms. Gary attacked Ms. Rowell because she would not give a
statement to police—were also disclosed at trial.34 [Ex. P-22 at 309, 363-64; Dkt. 63-7 at 15, 17].
Although it is the prosecution’s duty to disclose Brady material “at such a time as to allow
the defense to use the favorable material effectively in the preparation and presentation of its case,
even if satisfaction of this criterion requires pre-trial disclosure,” United States v. Pollack, 534
F.2d 964, 973 (D.C. Cir. 1976), delayed disclosure—even disclosure that occurs in the middle of
trial—is not a Brady violation unless the petitioner can establish prejudice from the delay,
including “that had the information or evidence been disclosed earlier, there is a probability
sufficient to undermine . . . confidence in the actual outcome that the jury would have acquitted.”
United States v. Clarke, 767 F. Supp. 2d 12, 40-41 (D.D.C. 2011) (quoting United States v. Celis,
608 F.3d 818, 835 (D.C. Cir. 2010), aff’d sub nom. United States v. Straker, 800 F.3d 570 (D.C.

^^Tes^u^erw)fthetwelvcpiecesofevidence Petitioner lists. [Dkt. 42 at 10-11], The other two, relating to the
and the details of Mr. Williams’ 1994 arrest, id. at 11, are addressed
below.

51

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 52 of 68

Cir. 2015). There is no indication that earlier disclosure or “highlight[ing]” these facts at trial or
on appeal [Dkt. 42 at 13] would have resulted in a different result at either proceeding. Rather,
the jury heard these potentially impeaching facts and nevertheless believed the testimony of the
four eyewitnesses who claimed that Petitioner shot Mr. Nash during the commission of a robbery.
In addition to the evidence discussed above that was disclosed at trial, Petitioner identifies
other potentially impeaching evidence that was not disclosed before or during trial:
, and the details of the crimes for which Mr. Williams was
convicted in 1987 and for which he was arrested in 1994.
Petitioner argues that

In his post-evidentiary hearing briefs, Petitioner focuses on two pieces of evidence that
might have been used to impeach Mr. Williams and that the parties agree were not disclosed by
the government before or during the trial: (1) the “facts underlying [Mr.] Williams’ 1987
conviction” (for unlawful entry and theft in the second degree [Dkt. 102 at 49]), which were
allegedly “similar[] to those involved in Petitioner’s trial” in that “he robbed an acquaintance at
gunpoint for a small sum of cash with an accomplice,” and (2) Mr. Williams’ 1994 “no-papered”

52

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 53 of 68

arrest, which could assertedly have been used to show that he had reason to curry favor with the
government when he testified at Petitioner’s trial in 1995. [Dkt. 104 at 38 n.27, 43 & n.31; Dkt.
109 at 4-5],
Petitioner’s theory at trial was that Mr. Williams was the robber and first aggressor, and
that Petitioner was defending himself when, in the tussle for Mr. Nash’s gun, shots inadvertently
hit Mr. and Ms. Nash in the front seat of the car. Recognizing that the facts of a crime are generally
not admissible to show propensity to commit a crime, Petitioner argues that Mr. Williams’ 1987
arrest, which involved him “breaking into an apartment with an accomplice who brandished a gun
and demanded a small sum of money” [Dkt. 109 at 5 n.5], would have advanced that argument.
On that theory, Petitioner asserts that the facts underlying the conviction would have been
admissible to show Mr. Williams’ modus operandi because of their similarity to the crime of which
Petitioner was convicted. Id. at 5-6.
Judge Canan ruled that the crime underlying Mr. Williams’ 1987 conviction “had nothing
in common” with the crime for which Petitioner was convicted. [Dkt. 63-10 at 27]. The case on
which Petitioner primarily relies supports Judge Canan’s conclusion. In Calaway v. United States,
the appellant challenged his rape conviction on the basis of, among other things, the fact that the
trial court had admitted evidence of his eight-year-old rape conviction as relevant to identity,
motive, and intent. 408 A.2d 1220, 1226 (D.C. 1979). The D.C. Court of Appeals affirmed the
lower court on that issue, finding that there were “strong” similarities between the two crimes that
were “probative of [the] appellant’s identity as the attacker”:
The victims were both young, white women. The attacker in both instances either
ordered the victim to remove her clothes or began forcibly removing them himself.
A severe blow to the jaw was then given to subdue both victims, followed by the
attacker’s climbing on top of the victim and manually strangling her.

53

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 54 of 68

Id. The court in Calaway cited other cases in which such evidence had been allowed, including
Arnold v. United States, 358 A.2d 335 (D.C. 1976). In that case, another rape prosecution, “the
methods employed by the rapist in each case were strikingly similar”:
For example, in each case the rapist, driving a light blue Volkswagen, invited the
victim into the automobile as an act of friendly concern and for an apparently
innocent purpose. In each case the friendly attitude of the rapist changed suddenly,
and without provocation, to one of anger accompanied by threats of bodily harm
and death, because of some injury allegedly perpetrated on him or some one of his
relatives by the victim or some one of her relatives. In each case the rape was
accomplished by first putting the victim in fear of her life and then apparently
abandoning that purpose and demanding and obtaining submission to sexual
intercourse. Finally, after each rape the victim was treated kindly and returned to
her destination.
Id. at 338-39). And in Bridges v. United States, similarities between the two crimes included that
the assailant broke into the rear of each victim’s dwelling in the early morning hours, within the
same area and the same six-month time period, awakened the victim and menaced her with a
weapon to gain her submission, cut or threatened to cut her phone lines, completed the act of
intercourse, and then fled the way he had come. 381 A.2d 1073, 1078 (D.C. 1977).
The resemblances between the crime at issue in Petitioner’s case and in Mr. Williams’
1987 case are significantly “less unique,” id., than in any of those cases. The only identified
correlations are that there was a gun, an accomplice, and a small sum of money involved. It is
therefore not at all clear that the underlying facts of the 1987 conviction would have been
admissible at Petitioner’s trial, had those facts been disclosed by the government prior to trial.
Petitioner is on somewhat stronger ground in arguing that Mr. Williams’ 1994 arrest should
have been disclosed because it was admissible impeachment evidence. Mr. Williams was arrested
for robbery and receiving stolen,property in July 1994, after Petitioner’s arrest but before his trial.
[Dkt. 102 at 65; Dkt. 104 at 30], Although the arrest was no-papered, it could conceivably have

54

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 55 of 68

been brought again at the time of Mr. Williams’ trial testimony, thus giving Mr. Williams a motive
to curry favor with the prosecution by testifying against Petitioner.
For example, in United States v. Lampkin, on which Petitioner relies [Dkt. 112 at 1—2], the
D.C. Circuit held that the defense had been entitled to cross-examine two juvenile witnesses about
no-papered offenses in order to show the witnesses’ motive to lie, regardless of the fact that the
actual threat of prosecution was slight.

159 F.3d 607, 610-13 (D.C. Cir. 1998). Lampkin,

however, goes on to undermine any argument that the failure to disclose this arguably admissible
information caused Petitioner prejudice sufficient to constitute a Brady/Giglio violation. For the
D.C. Circuit “declinefd]” to reverse one of the appellants’ convictions for possession with intent
to distribute cocaine because there was “ample circumstantial evidence” of his “dominion and
control over the apartment and the drugs inside [it],” including testimony that the appellant had
rented and lived in the apartment, discovery of the apartment keys and his car registration inside
the apartment, and the presence of ziplock bags of cocaine base within the dwelling. Id. at 613.
That is, there was sufficient evidence to support the verdict such that the absence of the potentially
impeaching evidence “did not have a substantial effect on the jury’s verdict,” as required for a
Brady/Giglio violation. Id.
So it is here. Even assuming that Mr. Williams’ prior bad acts would have been admissible
at trial and sufficiently undermined his credibility with the jury, there was still the testimony of
three other eyewitnesses—Ms. Nash, Ms. Rowell, and Ms. Gary—that inculpated Petitioner for
the murder of Mr. Nash. There was also corroborating forensic evidence supporting their stories.
For example, the medical examiner’s evidence about the angle of the wounds in Mr. Nash’s neck
was consistent with those witnesses’ explanation of the shooting. Indeed, that is the problem with
Petitioner’s contentions about all of this undisclosed, late-disclosed, and possibly uninvestigated

55

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 56 of 68

evidence.

The jury actually had before it significant impeaching evidence of each of the

eyewitnesses, yet it still believed those witnesses. Given the strength of the evidence against
Petitioner, he cannot show that any or all of the alleged Brady material, had it been disclosed or
been disclosed earlier, “could reasonably be taken to put the whole case in such a different light as
to undermine confidence in the verdict.” Banks, 540 U.S. at 698-99.
4.

Claims Related to Appellate Counsel’s Failure to Consult and Investigate
on Appeal

Extrapolating from claims presented in the Petition, Petitioner asserts in his postevidentiary hearing brief that Judge Sullivan did not consult with Petitioner during the pendency
of the appeal and did not conduct any post-trial investigation. [Dkt. 104 at 34-37]. These errors
purportedly resulted in a failure to discover the circumstances underlying Mr. Williams’ 1987
conviction as well as the fact of his 1994 arrest, which prejudiced Petitioner by preventing him
from raising claims related to those facts on appeal. [Dkt. 104 at 37-38, 43].
To the extent that Judge Sullivan’s alleged lapses foreclosed the opportunity to raise Brady
claims related to these non-disclosed facts, the failure does not constitute ineffective assistance
because, as discussed above, there were no true Brady claims. “[C]ounsel does not perform
deficiently by declining to pursue a losing argument.” United States v. Watson, 111 F.3d 196, 198
(D.C. Cir. 2013); see also United States v. Brisbane, 729 F. Supp. 2d 99, 117 (D.D.C. 2010)
(“[T]here clearly is no ‘reasonable probability’ that the outcome of the defendant’s appeal . . .
.‘would have been different’ had appellate counsel . . . argued [a meritless claim].” (quoting
Strickland, 466 U.S. at 694)). Nor, given the strength of the evidence against Petitioner, is there a
reasonable probability that the discovery and use of these facts in a non-Brady related argument
on appeal (such as a claim that trial counsel was ineffective for failure to use these facts at trial)
would have resulted in a different outcome.
56

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 57 of 68

Petitioner’s contention that, had Judge Sullivan conducted adequate research into Mr.
Williams’ criminal background, he would have realized that he had previously represented the
witness [Dkt. 104 at 38] is also flawed.

Surely Petitioner cannot be suggesting that Judge

Sullivan’s performance was deficient because he did not suffer from an actual conflict of interest.
If the argument is that the discovery of the prior representation would have resulted in Judge
Sullivan’s withdrawal, “the mere fact that another attorney would have taken over the case does
not demonstrate that [Judge Sullivan] was deficient in representing [Petitioner].” Gantt, 140 F.3d
at 254. That is true even if the replacement attorney would have raised all of the claims Petitioner
urges, because they are meritless.
5.

Claims Related to Two Uncalled Witnesses (Nos. 19-20, 23)

These claims relate to an alleged “promise” Judge Sullivan apparently made, both to
Petitioner during plea negotiations and to the jury in his opening statement, that he would call two
witnesses to testify that they had seen Mr. Williams with a gun at the crime scene. [Dkt. 42 at 1213]. Petitioner asserts that, as appellate counsel, Judge Sullivan was deficient for failing to argue
that he was ineffective for not presenting these witnesses at trial—that is, for “falsely promising”
to present them (No. 20). Id. Petitioner also argues that Judge Sullivan was deficient for failing
to argue that he was ineffective for “obstructing” plea negotiations with this false promise, which
purportedly helped to induce Petitioner to plead not guilty (Nos. 19, 23). Id.
“[T]he law of this Circuit and many others dictates” that if a petitioner seeks to show that
counsel is ineffective for failing to call one or more witnesses, he “must allege with specificity
what each witness would testify to, and how that would affect the evidence at trial.” United States
v. Campbell, No. 92-cr-0213, 2004 WL 5332322, at *14-15 (D.D.C. Sept. 1, 2004) (citing United
States v. Askew, 88 F.3d 1065, 1073 (D.C. Cir. 1996), aff’d in part, dismissed in part, 463 F.3d 1

57

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 58 of 68

(D.C. Cir. 2006); United States v. Sands, 968 F.2d 1058, 1066 (10th Cir. 1992), and United States
v. Debango, 780 F.2d 81, 85-86 (D.C. Cir. 1986), aff’d in part, dismissed in part, 463 F.3d 1 (D.C.
Cir. 2006). Here, Petitioner has not identified these two witnesses and has stated only in the most
general terms that they would testify that Mr. Williams had a gun at the crime scene. [Dkt. 42 at
12], Without more detail it is difficult to understand how that testimony could possibly have made
any difference. It was not, after all, in serious doubt at the trial that Mr. Williams was in possession
of a gun—Mr. Nash’s gun—at the scene of the crime. [Dkt. 63-2 at 8; Dkt. 63-7 at 14, 16; Dkt.
73-1 at 31; Dkt. 73-3 at 10; Dkt. 78-18 at 10-11, 15-16],
For the same reason, the claims based on counsel’s “obstruction]” of plea negotiations
must fail. Petitioner has provided no inkling of how the alleged promise affected plea negotiations.
It is Petitioner’s burden to “set forth evidence upon which the elements of a constitutionally
deficient performance might properly be found.” Simms v. United States, 730 F. Supp. 2d 58, 61
(D.D.C. 2010) (quoting Pinkney, 543 F.2d at 916). Petitioner has not done so here, failing to elicit
facts even at the evidentiary hearing about this issue. Petitioner’s claim that Judge Sullivan made
an “unfulfilled promise” to the jury fails for a more fundamental reason. The transcript of Judge
Sullivan’s opening statement shows that no such promise was made.35 [Ex. P-23 at 36—44].
Moreover, the scant facts presented point to a strategic decision on Judge Sullivan’s part.
He may have indicated to Petitioner that he planned to call the two witnesses, but, after hearing
testimony, decided against it, perhaps because other testimony had already established that Mr.
Williams had possession of a gun at the scene. See, e.g., United States v. Blackson, 236 F. Supp.
3d 1, 7 (D.D.C. 2017) (counsel not ineffective where he knew of potential witnesses, considered

35 Judge Sullivan has asserted he made no such promise [Dkt. 63-9 at 4] and, as Petitioner admits, counsel appointed
to represent Petitioner in his first collateral attack on his conviction reviewed the trial transcript and agreed “that trial
counsel never made the purported promise.” [Dkt. 73-2 at 33],

58

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 59 of 68

putting them on stand, and made intentional decision not to call them based on assessment of
proceedings). Finally, Petitioner makes no attempt to show that the outcome of his trial would
have been different had these witnesses testified. On this record, there is no basis for finding that
trial counsel erred, and therefore none to indicate that appellate counsel was ineffective for failing
to raise these arguments on appeal.
6.

Claims Related to Jury Instructions (Nos. 25, 32)

These claims assert that Judge Sullivan was ineffective on appeal because he did not argue
that he had been ineffective at trial for failing to request (1) an instruction that the jury could
consider that the murder was accidental (No. 25) and (2) an impeachment instruction after Mr.
Williams’ testimony (No. 32). [Dkt. 42 at 13]. Neither claim has merit.
Trial counsel made a strategic decision to present self-defense as the defense theory of the
case. See, e.g., Souza v. Mendonsa, No. Civ. A. 12-10705, 2013 WL 4517978, at *6 (D. Mass.
Aug. 23, 2013) (“Trial and appellate counsel[s’] decision not to pursue [a particular] theory was
the sort of tactical decision that is not the stuff of an ineffective assistance claim.”). As the
Supreme Court has noted, accident and self-defense are “two inconsistent affirmative defenses.”
Matthews v. United States, 485 U.S. 58, 64 (1988); see also Gezmu v. United States, 375 A.2d 520,
523 (D.C. 1977) (“[Appellant’s defense of accidental death was totally inconsistent with a theory
of self-defense.”). It is not ineffective assistance to choose to present a single theory of the case
rather than two or more inconsistent theories. See, e.g., Soler v. Ward, 281 F.3d 1278, 1278 (5th
Cir. 2001) (per curiam) (“[C]ounsel’s decision[] not to ... develop other theories inconsistent with
his chosen strategy, [was] reasonable.”); Jackson v. Shanks, 143 F.3d 1313, 1320 (10th Cir. 1998)
(“Trial counsel’s decision not to present inconsistent defense theories does not constitute
ineffective assistance.”); Nelson v. Nagle, 995 F.2d 1549, 1554 (11th Cir. 1993) (decision not to

59

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 60 of 68

present inconsistent defenses was reasonable). Nor did the fact that the jury was not instructed as
to accident prejudice Petitioner. Given the strength of the evidence against Petitioner—four
eyewitnesses testified that he purposefully shot Mr. Nash—there is not a reasonable possibility
that an accident instruction would have changed the outcome of the trial.
Similarly, the determination not to request an impeachment instruction after Mr. Williams’
testimony was a tactical decision. The prosecution impeached Mr. Williams with his prior
convictions. [Dkt. 63-10 at 25; Ex. P-22 at 211-12], Judge Sullivan testified that he “loved it
when the government did that,” because he “could then get up and argue that they didn’t even . ..
want to believe [their own witness].” [Dkt. 102 at 80]. He purposefully did not request an
impeachment instruction because he believed the instruction favored the government and would
undercut his ability to emphasize that “the government [was] making [Mr. Williams] a bad
person.” Id. at 83. Such a strategic decision by counsel does not rise to the level of ineffective
assistance. See, e.g. United States v. Quattlebaum, 933 F. Supp. 2d 208, 212 (D.D.C. 2013)
(“[C]ounsel’s particular approach to the government’s evidence was tactical, constituting a
quintessential ‘strategic choice’ that ‘is virtually unchallengeable.’” (quoting United States v.
Toms, 396 F.3d 427, 433 (D.C. Cir. 2005)). In any event, the trial court gave an impeachment
instruction when it instructed the jury prior to deliberations. [Dkt. 63-10 at 26]. Thus, there was
no prejudice to Petitioner. See, e.g., United States v. Bruner, 657 F.2d 1278,1286 (D.C. Cir. 1981)
(finding no error where jury did not receive immediate impeachment instruction because
instruction given later in trial).
7.

Claim Related to Mr. Nash’s Conviction (No. 24)

Petitioner further contends that Judge Sullivan should have argued that he was deficient at
trial for failing to introduce evidence of Mr. Nash’s armed robbery conviction in 1979 to support

60

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 61 of 68

“the defense theory that Keith Nash was the first aggressor.” [Dkt. 42 at 13; Dkt. 78-31 at 10-11].
Addressing this claim, the D.C. Superior Court said that it “could not fault” Judge Sullivan for
employing the strategy of “attack[ing] Mr. Williams and not Mr. Nash.” [Dkt. 78-27 at 10], As
that statement shows, the defense’s theory was that Mr. Williams was the first aggressor when he
tried to rob Petitioner at gunpoint. Petitioner testified to that at trial. But here, he suggests that
Judge Sullivan should have focused instead on Mr. Nash.
“[C]ourts are extremely reluctant to second guess questions of trial strategy.” Browne v.
Heath, No. 11 CV 1078, 2014 WL 8390320, at *29 (E.D.N.Y. Aug. 25, 2014), report and
recommendation adopted, 2015 WL 1469182 (E.D.N.Y. Mar. 30, 2015). Thus, a petitioner’s
“desire to have a specific defense theory presented does not amount to ineffective assistance on
federal habeas review.” Coble v. Quarterman, 496 F.3d 430, 437 (5th Cir. 2007). In addition,
Judge Sullivan could reasonably have concluded that an argument that Mr. Nash was the first
aggressor “was inconsistent with Petitioner’s own description of the killing.” Williamson v.
Moore, 221 F.3d 1177,1180 (11th Cir. 2000). To fail to adduce evidence that supported a narrative
that would have undermined Petitioner’s own testimony was not deficient performance. Petitioner
also fails to provide any indication that introduction of a then-fifteen-year old conviction at trial
[Dkt. 78-27 at 10] would have had any effect on its outcome.
8.

Claim Related to Motion for Judgment of Acquittal (No. 12)

Petitioner asserts that Judge Sullivan should have argued on appeal his performance at trial
was deficient because he did not renew the motion for judgment of acquittal at the close of
testimony. [Dkt. 42 at 11]. Petitioner has not shown that such a renewed motion would have
succeeded, however. Indeed, on direct appeal, the D.C. Court of Appeals rejected the argument
that “the trial court erred in denying [Petitioner’s] motion for judgment of acquittal on the ground

61

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 62 of 68

of insufficient evidence.” [Dkt. 63-1 at 3]. Thus, there was “no prejudice suffered by [Petitioner
based on counsel’s failure to make [that] motion.” Browne, 2014 WL 8390320, at *26 (petitioner
could not show prejudice for failure to move for dismissal on the basis of legal insufficiency where,
on direct appeal, appellate court found that there was sufficient evidence).
9.

Claim Related to Photo ofPetitioner (No. 11)

According to Petitioner, the trial judge allowed the government to introduce a photograph
of Petitioner that included a police department identification number. [Dkt. 42 at 11]. He asserts
that Judge Sullivan should have argued on appeal that this was reversible error. Id.
“It is well-settled law that the criminal record of a defendant may not be introduced into
evidence at trial unless the defendant takes the stand or otherwise places his character in issue. A
photograph which on its face reveals the existence of such a criminal record is likewise
inadmissible when the defendant’s character has not been placed in issue.” Barnes v. United
States, 365 F.2d 509, 510 (D.C. Cir. 1966) (opinion of Levanthal, J.). Here, however, the
photograph of Petitioner introduced at his trial was identified at trial as being from his arrest in
connection with the crimes at issue in that very trial. [Ex. P-22 at 204], There can have been no
prejudice, then, from any implication that Petitioner had contact with law enforcement—that much
was evident from the fact that he was being tried for the killing of Mr. Nash, among other crimes.
See, e.g., United States ex rel. Bleinmehl v. Cannon, 525 F.2d 414,419 (7th Cir. 1975) (noting that
problem with introducing mug shot into evidence is “the prejudicial effect of revealing the
defendant’s prior record”). Admission of the photograph was not error, and cannot be the basis
for an ineffective assistance claim.

62

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 63 of 68

10.

Claim Related to Counsel’s Preparation of Petitioner to Testify (No. 21)

This claim alleges that appellate counsel was ineffective for failing to argue that trial
counsel performed deficiently because he did not “prepare Petitioner to testify about the physical
positions of the victims at the time they were shot in order to demonstrate how [Mr.] Williams
would have been responsible for the murder.” [Dkt. 42 at 12; Dkt. 63-2 at 9-10]. The forensic
evidence regarding the placement of Mr. and Ms. Nash’s wounds (on their left sides) was
consistent with testimony from the four eyewitnesses for the prosecution that Mr. and Ms. Nash
were in the front seat of the car when they were shot from the left rear side of the car. Petitioner’s
testimony, however, placed Mr. Nash in the driver’s seat, Ms. Nash in the middle of the back seat,
and the putative shooter, Mr. Williams, to the right of both of them, directly behind the front
passenger seat. [Ex. P-22 at 431-32; Dkt. 63-2 at 7-8; Dkt. 73-1 at 27]. Petitioner asserts that,
had Judge Sullivan pointed out the relevant forensic evidence before trial, Petitioner “would have
understood the significance of his potential testimony as to the positions of [the Nashes] and could
have testified accordingly. „36 [Dkt. 63-2 at 10].
The D.C. Superior Court found in 1999 that Judge Sullivan met with Petitioner several
times to prepare him to testify, and that Judge Sullivan was familiar with Petitioner’s version of
events and “sat down on more than one occasion to go over [that story] extensively.” [Dkt. 78-27
at 8]. There is no allegation that Petitioner was unaware of the forensic reports, which were, after
all, introduced into evidence at trial, presumably in his presence. That is, he was aware of the
evidence at the time that he testified. Thus, “there was nothing to prevent [Petitioner] from telling
his story.” Id. at 9. Moreover, both the D.C. Superior Court and the D.C. Court of Appeals found

36 This is not, as it appears, a suggestion that Petitioner would have changed his story to fit the forensic evidence.
Rather, Petitioner insists “[t]he gunshot wounds on the left side of [Mr.] Nash’s neck and [Ms.] Nash’s abdomen were
consistent with their being in the positions described by [Petitioner] at the time the shots were fired.” [Dkt. 63-2 at
9]-

63

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 64 of 68

that the defense made a strategic decision to present the theory of a “great commotion in the car
with people struggling, running away, and turning around,” which would not have been furthered
by testimony as to the precise positions of the passengers in the car at the time of the shooting.
[Dkt. 78-27 at 9; Dkt 63-3 at 4], It is not clear, then, what would have been gained by Judge
Sullivan highlighting the forensic evidence while preparing Petitioner. See, e.g., Stuart v. Ward,
236 F. App’x 344, 348 (10th Cir. 2007) (trial counsel not ineffective for failing to prepare
defendant to testify where defendant “testified on direct and cross-examination consistently with
his theory of the case”); see also, e.g., Nowicki v. Cunningham, No. 09 Civ. 8476, 2011 WL
12522139, at *6 (S.D.N.Y. Mar. 30, 2011) (“As counsel’s actions were grounded in strategy that
advanced the defense’s theory of the case they cannot serve as the basis for a Strickland claim.”),
report and recommendation adopted, 2014 WL 5462475 (S.D.N.Y. Oct. 27, 2014).
And, as before, Petitioner has not shown prejudice. The jury apparently believed the four
eyewitnesses’ testimony as to the positions of those involved in the crime, which were largely
consistent with each other and diverged substantially from Petitioner’s. In light of the strength of
the evidence against him, Petitioner has not shown that additional preparation from his counsel
prior to Petitioner’s testimony could reasonably be expected to have changed the outcome. See,
e.g., United States v. Jenkins, 714 F. Supp. 2d 25, 32-33 (D.D.C. 2010) (counsel not ineffective
for failing to prepare defendant to testify where defendant did not show he was prejudiced and “the
strong evidence of guilt adduced at trial trivializes any such prejudice”). Because any failure to
prepare did not constitute ineffective assistance, Judge Sullivan was not ineffective for foregoing
the argument on appeal.

64

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 65 of 68

11.

Claims Related to Cross-Examination of Mr. Williams (Nos. 17-18, 26)

These three claims concern the cross-examination of Mr. Williams. Petitioner contends
that Judge Sullivan was ineffective for not arguing on appeal that he was ineffective at trial for
failing to (1) confront Mr. Williams with the forensic report showing that the gun he allegedly shot
at Petitioner was fully loaded when it was turned over to the police (No. 17); (2) undermine Mr.
Williams’ testimony with Ms. Nash’s testimony that she saw him with a gun prior to the shooting
(No. 18); and (3) impeach Mr. Williams with his prior convictions and with information gleaned
from Judge Sullivan’s prior representation of Mr. Williams (No. 26). [Dkt. 42 at 12-13],
Petitioner makes no attempt to show that there is a reasonable probability that employing
any or all of these strategies would have changed the outcome at trial. As has been discussed
repeatedly herein, the evidence against Petitioner was strong. Moreover, the jury had Ms. Nash’s
testimony and the forensic report regarding Mr. Williams’ gun before it when it found Petitioner
guilty. Additionally, as noted in the analyses above, the government impeached Mr. Williams
with prior convictions, and it is unlikely that evidence of other convictions would have been
admissible at trial. And, as has been established, counsel was unaware of his prior representation
of Mr. Williams at the time of the trial and appeal, so he could not have used material gleaned
from that representation at those proceedings. Nor should he have done so. Rather, had he
remembered his prior representation of Mr. Williams, he should have withdrawn from his
representation of Petitioner.
Because none of these arguments establish that trial counsel was ineffective, appellate
counsel’s performance was not deficient for failing to raise them.

65

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 66 of 68

12.

Failure to Advise Petitioner ofRight to Argue Ineffective Assistance of Trial
Counsel on Appeal

According to Petitioner, appellate counsel’s choice to pursue the “weak” claim that there
was insufficient evidence to convict Petitioner “despite the presence of significantly stronger
claims, including ineffective assistance of trial counsel, runs afoul of counsel’s obligations. „37
[Dkt. 104 at 44-45], Whether or not the sufficiency-of-the-evidence claim was a particularly weak
claim—a likely possibility, given the strength of the evidence against Petitioner, see, e.g., Hayes
v. Battaglia, 403 F.3d 935, 938 (7th Cir. 2005) (“[I]t is black letter law that testimony of a single
eyewitness suffices for conviction even if 20 bishops testify that the eyewitness is a liar.”)—
Petitioner cannot show prejudice because, as discussed exhaustively above, none of the claims he
might have raised has merit. That is, even had Judge Sullivan advised Petitioner that he could
argue ineffective assistance of trial counsel on appeal and thereafter withdrawn from the
representation so that new counsel could make all of the arguments Petitioner has presented here,
the outcome of the appeal would not have been different because none of those claims would have
succeeded.
13.

Cumulative Error

Finally, Petitioner argues that, if none of the grounds he raises challenging the adequacy of
his appellate counsel entitles him to relief standing alone, in the aggregate they “demonstrate
representation far below what is considered effective under the Constitution” [Dkt. 104 at 45]—
what Petitioner’s counsel terms a “sort of death by a thousand cuts approach” [Dkt. 114 at 35].38
However, in order for a cumulative error argument to succeed, there must first be errors. As the
Fifth Circuit has put it, “[m]eritless claims or claims that are not prejudicial cannot be cumulated,

37 This claim is not enumerated in the Petition, but was argued by counsel in subsequent submissions.
38 Again, this claim was argued by counsel although not enumerated in the Petition.

66

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 67 of 68

regardless of the total number raised.” Westley v. Johnson, 83 F.3d 714, 726 (5th Cir. 1996); see
also United States v. Chambers, 681 F. App’x 72, 81 (2d Cir. 2017) (“The errors argued . . . were
either harmless or not errors. Thus, considered individually or cumulatively, they afford no relief
....”); United States v. Simmons, 431 F. Supp. 2d 38,68 (D.D.C. 2006) (“[defendant’s] contention
that the cumulative effect of errors requires a new trial must be rejected because this Court has
already rejected [defendant’s] claims of error.”), aff’d sub nom. United States v. McGill, 815 F.3d
846 (D.C. Cir. 2016); Sanders v. Sullivan, 701 F. Supp. 1008, 1013 (S.D.N.Y. 1988) (“The
cumulative-error rule, whatever form it takes, can only come into play after errors have been
discovered . . . .”). Because Petitioner has not identified any error by his appellate counsel, this
claim, too, should be denied.
CONCLUSION
For the foregoing reasons, the undersigned RECOMMENDS that Petitioner’s Third
Verified Amended Petition for Writ of Habeas Corpus [Dkt. 42] be DENIED.

The parties are hereby advised that under the provisions of Local Rule 72.3(b) of the United
States District Court for the District of Columbia, any party who objects to the Report and
Recommendation must file a written objection thereto with the Clerk of this Court within 14 days
of the party’s receipt of this Report and Recommendation. The written objections must specifically
identify the portion of the report and/or recommendation to which objection is made, and the basis
for such objections. The parties are further advised that failure to file timely objections to the
findings and recommendations set forth in this report may waive their right of appeal from an order
of the District Court that adopts such findings and recommendation. See Thomas v. A rn, 474 U.S.
140(1985).

67

Case l:10-cv-00178-ABJ-GMH Document 115 Filed 04/11/18 Page 68 of 68

Date: April 11,2018
G. MICHAEL HARVEY
UNITED STATES MAGISTRATE JUDGE

I

68

